<html>
<title> - HEARING ON H.R. 15, H.R. 150, AND H.R. 154</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
               HEARING ON H.R. 15, H.R. 150, AND H.R. 154

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

 H.R. 15, A BILL TO DESIGNATE A PORTION OF THE OTAY MOUNTAIN REGION OF 
 CALIFORNIA AS WILDERNESS; H.R. 150, A BILL TO AMEND THE ACT POPULARLY 
 KNOWN AS THE RECREATION AND PUBLIC PURPOSES ACT TO AUTHORIZE DISPOSAL 
  OF CERTAIN PUBLIC LANDS OR NATIONAL FOREST LANDS TO LOCAL EDUCATION 
AGENCIES FOR USE FOR ELEMENTARY OR SECONDARY SCHOOLS, INCLUDING PUBLIC 
 CHARTER SCHOOLS, AND FOR OTHER PURPOSES; H.R. 154, A BILL TO PROVIDE 
     FOR THE COLLECTION OF FEES FOR THE MAKING OF MOTION PICTURES, 
 TELEVISION PRODUCTIONS, AND SOUND TRACKS IN NATIONAL PARK SYSTEM AND 
     NATIONAL WILDLIFE REFUGE SYSTEM UNITS, AND FOR OTHER PURPOSES

                               __________

                    FEBRUARY 4, 1999, WASHINGTON, DC

                               __________

                            Serial No. 106-2

                               __________

           Printed for the use of the Committee on Resources

 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources



                      U.S. GOVERNMENT PRINTING OFFICE
 54691                      WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          CARLOS A. ROMERO-BARCELO, Puerto 
JOHN J. DUNCAN, Jr., Tennessee           Rico
JOEL HEFLEY, Colorado                NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
WALTER B. JONES, Jr., North          DONNA CHRISTIAN-CHRISTENSEN, 
    Carolina                             Virgin Islands
CHRIS CANNON, Utah                   RON KIND, Wisconsin
RICK HILL, Montana                   JAY INSLEE, Washington
JIM GIBBONS, Nevada                  TOM UDALL, New Mexico
MARK E. SOUDER, Indiana              MARK UDALL, Colorado
DON SHERWOOD, Pennsylvania           JOSEPH CROWLEY, New York
                        Allen Freemyer, Counsel
                     Todd Hull, Professional Staff
                    Liz Birnbaum, Democratic Counsel
                   Gary Griffith, Professional Staff


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held February 4, 1999....................................     1

Statements of Members:
    Bilbray, Hon. Brian, a Representative in Congress from the 
      State of California........................................     5
        Prepared statement of....................................     6
    Hansen, Hon. James, a Representative in Congress from the 
      State of Utah..............................................     2
        Prepared statement of....................................     3
    Hayworth, Hon. J.D., a Representative in Congress from the 
      State of Arizona...........................................     8
        Prepared statement of....................................    11
    Hefley, Hon. Joel, a Representative in Congress from the 
      State of Colorado..........................................    12
        Prepared statement of....................................    14

Statements of witnesses:
    Bigelow, Clarence, County Manager, Apache County, Arizona....    29
        Prepared statement of....................................    41
    Brouha, Paul, Associate Deputy Chief, U.S. Forest Service....    16
        Prepared statement of....................................    35
    Fry, Tom, Acting Director, Bureau of Land Management.........    15
        Prepared statement of....................................    34
    Lee, Arthur N., Supervisor, District 3, Apache County, 
      Arizona....................................................    30
        Prepared statement of....................................    42
    Saunders, Stephen, Deputy Assistant Secretary, Fish, 
      Wildlife, and Parks........................................    18
        Prepared statement of....................................    36
    Silva, David, Principal, Alpine Elementary School, Apache 
      County, Arizona............................................    28
        Prepared statement of....................................    60
    Valenti, Jack, President and CEO, Motion Picture Association 
      of America, Inc............................................    24
        Prepared statement of....................................    37
    Voorhees, Philip H., Director of National Programs, National 
      Parks and Conservation Association.........................    26
        Prepared statement of....................................    39

Additional material supplied:
    Association of National Advertisers, prepared statement of...    93
    Beck, Michael, San Diego Director, Endangered Habitats 
      League, prepared statement of..............................    99
    Hunt, Frances A., Director, BLM Programs of The Wilderness 
      Society, prepared statement of.............................    97
    Perlman, Victor S., Managing Director and General Counsel of 
      American Society of Media Photographers, prepared statement 
      of.........................................................    88
    Text of H.R. 15..............................................    44
    Text of H.R. 150.............................................    50
    Text of H.R. 154.............................................    55
                              ----------                              


                       THURSDAY, FEBRUARY 4, 1999

              House of Representatives,    
                 Subcommittee on National Parks    
                                  and Public Lands,
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:01 a.m., in 
Room 1324, Longworth House Office Building, Hon. James Hansen 
[Chairman of the Subcommittee] presiding.
    Mr. Hansen. It is time for the meeting to come to order; 
however, our first three witnesses haven't walked in the door 
yet, which makes it just a tad difficult. So, if it is all 
right with everybody, we will just wait just a moment. If they 
don't show up in a couple minutes, we will start with the first 
panel.
    While we are doing that, I welcome the Ranking Member, 
Carlos Romero-Barcelo from Puerto Rico, a very fine member of 
the Committee, and it has always been a pleasure to work with 
the gentleman from Puerto Rico, and I will look forward to 
working you through this next term.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman. It has always 
been a great pleasure working with you. I know you to be a fair 
person and I look forward to working with you together on this 
Subcommittee.
    Mr. Hansen. So far, we have Mr. Udall as the only member 
who has come from far out, and we welcome Mr. Udall as a member 
of this Committee. We will look forward to working with you, 
and I spent many years working with your father who was an 
outstanding individual. Every time I think of Udall, Arizona 
just pops in my mind for some reason.
    Mr. Udall. Mr. Chairman, thank you. I am looking forward to 
being here as well. I think you know the Udalls are of Mormon 
stock, and my great grandfather came down from Utah and settled 
in northern Arizona, so we do have connections.
    Mr. Hansen. We won't hold that against you.
    Mr. Udall. Please don't.
    [Laughter.]
    One of the reasons I think we did so well in Arizona 
politically is my great-great grandfather was a polygamist, and 
he had 15 wives, and if you ran the numbers, there are more 
than 1 million Udall descendants. You figure there are only 
600,000 people in a congressional district, you might have 
pretty good odds.
    Mr. Hansen. I understand that if Mormons can't convert 
them, they breed them, so it is one way or the other----
    [Laughter.]
    I don't have the privilege of coming from that kind of 
stock, but my wife had the same type of thing. In fact, her 
father came from a polygamist family in Montpelier, Idaho. When 
did you leave Arizona, may I ask?
    Mr. Udall. My mother is a native of Colorado; my father, 
you may remember, played basketball for the Nuggets. They met 
in the late forties in Denver and came back to Arizona, and 
when I got out of school, college that is, I moved back to 
Colorado in the early seventies. And I have, I am proud to tell 
you, on my mother's side of the family some people who served 
in public life there--Republicans as well. So, you know, there 
is some hope.
    Mr. Hansen. I do know some Udall Republicans just like 
there are some Babbitts that are Republicans in Arizona.
    And speaking of Arizona, we are grateful to see the 
gentleman from Arizona, Mr. J.D. Hayworth, and the meeting will 
come to order.

 STATEMENT OF HON. JAMES HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. This is the first meeting of the Subcommittee 
on National Parks and Public Land for the 106th Congress, and I 
would just like to take this opportunity to welcome our new 
members. We have talked to Mr. Udall; I don't see any other new 
members here at the present time. We are happy to have you with 
us, and we look forward to working with you.
    This morning we will hear testimony on three bills: H.R. 
15, to designate a portion of the Otay Mountain region of 
California as wilderness; H.R. 150, to amend the act properly 
known as the Recreation and Public Purpose Act to authorize 
disposal of certain public lands or national forest lands to 
local education agencies for use as elementary or secondary 
schools, including public charter schools, and H.R. 154, to 
provide for the collection of fees for the making of motion 
pictures, television production, and soundtracks in National 
Park System and National Wildlife Refuge System units.
    The first bill, introduced by Congressman Bilbray of 
California, would create the Otay Mountain Wilderness Area in 
southern California. This area is right on the U.S.-Mexico 
border and contains several sensitive species, including the 
Mexican flannel bush and the Tecate Cypress. The Otay Mountain 
Area has good opportunities for solitude and primitive 
recreation, and its preservation is very important to people of 
San Diego County.
    I have heard a few concerns that this bill might need to be 
finetuned to avoid blowing a hole in our border. I share those 
concerns; I want to assure people that the subcommittee will do 
whatever it needs to do in order to ensure that border patrol 
and drug interdiction activities will continue in this area.
    We had the same issue arise during the 103rd Congress when 
we passed the California Desert Wilderness Protection Act, and 
I am confident that we can reach a similar solution here that 
will satisfy all parties concerned.
    The second bill is H.R. 150 introduced by Mr. Hayworth of 
Arizona. H.R. 150, the Education Land Grant Act, would amend 
the Recreation and Public Act which covers the Bureau of Land 
Man-

agement public domain land to include Forest Service lands and 
would provide for an expedited review of the RPPA applications 
from local education agencies.
    I commend Mr. Hayworth for introducing this bill again. 
This is a good idea that would help numerous rural communities. 
As it stands now, anytime we want to convey national forest 
lands to a community for a school, we have to come in here and 
push a bill all the way through Congress. H.R. 150 would give 
the Forest Service the statutory authority to make these 
decisions administratively.
    The final bill we will hear today is H.R. 154 which was 
introduced by a fellow member of this subcommittee, Mr. Hefley, 
from Colorado. H.R. 154 would repeal the existing Department of 
the Interior regulatory prohibition on collecting fee units at 
the National Park System and the National Wildlife Refuge 
System for the use of these areas for commercial film 
production.
    This bill also authorizes the Secretary to establish a fee 
schedule using a number of relevant factors, such as the number 
of people on site and the duration of the filming activities. 
However, the bill would not affect newsreel or television news 
activities.
    I want to commend Mr. Hefley on reintroducing this bill 
which we also heard last year. Correcting the regulatory 
prohibition on collecting fees from the film industry for using 
our national treasures as backdrops for their production is 
long overdue, and I am glad to have this bill before us once 
again.
    I want to thank all the witnesses for being here today to 
testify, including Mr. Jack Valenti, the well-known president 
of the Motion Pictures Association of America.
    And with that said, I will turn to the ranking member of 
the committee, Mr. Romero-Barcelo, for any comments that he may 
have.
    [The statement of Mr. Hansen follows:]

 Statement of Hon. James V. Hansen, a Representative in Congress from 
                           the State of Utah

    Good morning. The Subcommittee on National Parks and Public 
Lands will come to order.
    This is the first meeting of the Subcommittee on National 
Parks and Public Lands for the 106th Congress and I would just 
like to take this opportunity to welcome our new members. We 
are happy to have you with us and we look forward to working 
with you.
    This morning we will hear testimony on three bills:--H.R. 
15, to designate a portion of the Otay (O Tie) Mountain region 
of California as wilderness.--H.R. 150, to amend the Act 
popularly known as the Recreation and Public Purposes Act to 
authorize disposal of certain public lands or national forest 
lands to local education agencies for use as elementary or 
secondary schools, including public charter schools--and H.R. 
154, to provide for the collection of fees for the making of 
motion pictures, television productions, and sound tracks in 
National Park System and National Wildlife Refuge System units.
    The first bill, H.R. 15, introduced by Congressman Bilbray 
of California, would create the Otay Mountain Wilderness Area 
in southern California. The area is right on the U.S.-Mexico 
border and contains several sensitive species, including the 
Mexican flannel bush, and the Tecate Cypress. The Otay mountain 
area has good opportunities for solitude and primitive 
recreation and its preservation is very important to the people 
of San Diego County.
    I have heard a few concerns that this bill might need to be 
fine tuned to avoid blowing a hole in our border. I share those 
concerns, and I want to assure people that the Subcommittee 
will do whatever it needs to do in order to insure that border 
patrol and drug interdiction activities will continue in this 
area. We had the same issue arise during the 103rd Congress 
when we passed the California Desert Wilderness Act, and I am 
confidant that we can reach a similar solution here that will 
satisfy all parties concerned.
    The second bill is H.R. 150, introduced by Mr. Hayworth of 
Arizona. H.R. 150, the Education Land Grant Act, would amend 
the Recreation and Public Purposes Act (RPPA), which covers 
Bureau of Land Management public domain lands, to include 
Forest Service lands, and would provide for an expedited review 
of RPPA applications from local education agencies.
    I commend Mr. Hayworth for introducing this bill again. 
This is a good idea that would help numerous rural communities. 
As it stands now, any time we want to convey National Forest 
land to a community for a school, we have to come in here and 
push a bill all the way through Congress. H.R. 150 would give 
the Forest Service the statutory authority to make these 
decisions administratively.
    The final bill we will hear today is H.R. 154 which was 
introduced by a fellow member of the Subcommittee, Joel Hefley 
from Colorado. H.R. 154 would repeal the existing Department of 
the Interior regulatory prohibition on collecting fees at units 
of the National Park System and the National Wildlife Refuge 
System for the use of these areas for commercial film 
productions. This bill also authorizes the Secretary to 
establish a fee schedule using a number of relevant factors, 
such as the number of people on site and the duration of the 
filming activities. However, the bill would not affect newsreel 
or television news activities.
    I want to commend Mr. Hefley on reintroducing this bill 
which we also heard last year. Correcting the regulatory 
prohibition on collecting fees from the film industry for using 
our national treasures as backdrops for their production is 
long overdue and I'm glad to have this bill before us once 
again.
    I want to thank all of our witnesses for being here today 
to testify on these bills, including Mr. Jack Valenti, the 
well-known president of the Motion Picture Association of 
America.

    Mr. Romero-Barcelo. Thank you, Mr. Chairman, and it is, 
indeed, a pleasure to be here today at the first meeting of the 
year of the National Parks and Public Lands Subcommittee. We 
look forward to working with you on the many issues of the 
Subcommittee that we will likely face in this 106th Congress.
    Although we are in a new Congress, the legislation before 
the Subcommittee today are not new measures. All three bills we 
are hearing today were considered and marked up by the 
Subcommittee in the last Congress. H.R. 15 the Otay Mountain 
Wilderness bill reflects a bill that was marked up by the 
Subcommittee in the last Congress. However, we understand that 
there are still some questions as to the effect of the language 
of section 6(b) of the bill which I am confident will be 
answered and addressed during this hearing and during the 
process.
    H.R. 150, although we considered a similar bill last 
Congress, the bill that was introduced does not reflect what 
was adopted by the Resources Committee last Congress. The 
administration has concerns for the legislation that they will 
elaborate on in their testimony.
    And with regards to H.R. 154, the film fee bill, we are not 
aware of any controversy associated with the legislation. The 
bill reflects language we worked out last Congress with all 
interested parties.
    Mr. Chairman, we appreciate the attendance of the witnesses 
today and look forward to their testimony.
    Mr. Hansen. Thank you. I appreciate the gentleman's 
comments. We will start out with our three Members of Congress 
on the bills that are being considered. Gentlemen, we would 
like to point out to you that we have got three panels 
following your testimony and, the gentleman from California, 
the gentleman from Arizona, when you have completed your 
testimony, we would be very pleased to have you join on us on 
the dais, whatever your druthers would be.
    Mr. Bilbray, we will start with you.

 STATEMENT OF HON. BRIAN BILBRAY, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Bilbray. Mr. Chairman, thank you very much for giving 
me a chance to be able to address your Subcommittee on behalf 
of the Otay Mountain Wilderness Act, H.R. 15. The bill is 
identical to that which was approved by your Subcommittee last 
year. Let me just tell you we have been working with all 
parties involved. We have the strong support from the Federal 
contingency, including the Border Patrol; the California 
Department of Forestry, the San Diego Board of Supervisors, 
which represents the 2.8 million million that live just to the 
north of this area, and the San Diego Association of 
Governments that represents all the local cities and government 
agencies in the region, and the Endangered Habitat League, a 
respected local environmental group. I also want to thank the 
senior Senator from California, Senator Feinstein, for her 
years of working to make sure that management of this area was 
balanced and effective from all sides of the issue.
    I would like to point out that the concerns which have been 
expressed related to the border region are ones that do not go 
past me at all. As I think that you are aware, outside of maybe 
Silvestre Reyes or Duncan Hunter, there are not very many other 
Members of Congress who have been as involved or as committed 
to border security and border control.
    I think, though, here with H.R. 15, we are able to prove 
that by working all the agencies together and naturally being 
sensitive to both missions, we can fulfill the mission of 
preservation of a wilderness area and the issue of border 
patrol.
    And let me just say, quite frankly, Mr. Chairman, that not 
only are the two missions not mutually exclusive, they are 
essential to each other. There is no way to preserve the 
habitat potential for the Tecate Cypress and the other 
endangered species in the area without successfully controlling 
the immigration issues in the area.
    Now, we have extensive experience in this region. If you 
will refer to your map, if you look down on the extreme left-
hand corner of the map of what is showing the San Diego County/
Imperial County region, there is the Tijuana Estuarine Research 
Preserve in that corner. That is the most protected land under 
our designation, practically, in the United States, and we have 
been able to work with Border Patrol and the Department of 
Interior to not only preserve the habitat in that area but also 
to control illegal immigration, and the two agencies have 
worked together consistently in that area. Otay Mountain is the 
next step in showing that immigration control and wildlife 
preservation are both essential and mutually compatible.
    Now, I just had a discussion with the regional director of 
the Border Patrol yesterday about this item. They are very 
comfortable with this bill, Mr. Chairman, and if you are 
concerned that it could cause some problems for Border Patrol, 
let me refer you to the onsite map and the references to the 
cherry stemmed roads. We have learned that we need to have the 
ability, if necessary, to put structures up along the border, 
but we need proper access and communication. Border patrol and 
BLM have completed a road that runs right along the border, 
and, if you notice, the wilderness area does not include the 
area actually on the border. That gives the Border Patrol the 
ability to build structures if need be, and to maintain their 
access roads. On either side of the cherry stemmed roads they 
have a 100 feet, which, if a physical structure is found to be 
needed in the future, can be accommodated, and the space is 
there to be able to do that.
    Not just that, but this will be one of the few places along 
the border where we will have not just one, but the ability to 
place two lines of defense directly on the border, and the two 
cherry stemmed roads--you can tell there is one on the border 
and then there is one about a half a mile to a mile north of 
there--that gives the Border Patrol the level of confidence to 
be able to sincerely tell me yesterday that everything looks 
great. They are very comfortable with this proposal. In fact, 
they think this proposal will help to resolve the management 
difficulties it had in the past.
    I would refer you to a letter by the Department of 
Interior; Secretary Babbitt has stated in this letter, dated 
February 3rd, 1999, that the Administration is in strong 
support of H.R. 15.
    And, so I just leave you with this--I think we have worked 
it out; we have gotten all sides, everybody working together. 
Frankly, I think the history of cooperation along this part of 
the border has been more than productive, and I think with H.R. 
15, we have been able to build on that, and I would like to 
take the next step. I hope it will set an example for more 
action, appropriate and balanced action, east of this area and 
elsewhere. So, I guess we are all learning as we are doing it 
and moving forward.
    Mr. Chairman, I yield back my time.
    [The prepared statement of Mr. Bilbray follows:]

 Statement of Hon. Brian P. Bilbray, a Representative in Congress from 
                        the State of California

    Mr. Chairman, thank you for convening this hearing, and for 
the opportunity to testify before your Subcommittee on H.R. 15, 
the Otay Mountain Wilderness Act of 1999. I appreciate the 
attention of the Subcommittee to this important legislation, 
which would designate as wilderness a special and unique 
natural resource along our southern border with Mexico.
    Mr. Chairman, as a lifelong resident of San Diego, I am 
very aware of the unique natural assets which are found at Otay 
Mountain, most of which is presently managed as a wilderness 
study area. This management has in large part been focused on 
conservation and enhancement of the region's plant and animal 
life, including unique scenic, cultural, and geologic assets, 
in addition to the wilderness values found at Otay. 
Historically, Otay's Mountain's close proximity to the U.S. 
Mexican border has also made it a flashpoint for the ongoing 
immigration control and narcotics interdiction efforts of the 
United States Border Patrol.
    I am pleased to be able to report to you the high level of 
support which exists for H.R. 15 at the local, state, and 
Federal level. Secretary Bruce Babbitt recently toured Otay 
Mountain, and while I was unfortunately unable to accompany 
him, he was clearly impressed with its natural beauty, drawing 
comparisons to such crown jewels as Yellowstone and Yosemite, 
and is very supportive of this legislation. In fact, I'm told 
that he said he hoped to be able to return to Otay Mountain 
this year to ``pop a champagne cork'' in celebration of 
enactment of this legislation.
    Local support, which is so critical to any successful 
resource management plan, is considerable--the San Diego County 
Board of Supervisors (on which I served prior to coming to 
Congress) will meet on February 17th to consider a resolution 
in support of H.R. 15 that is expected to pass unanimously; the 
San Diego Association of Governments (SANDAG) is also on record 
in support, as is the Endangered Habitats League, a respected 
regional conservation group.
    I also want to thank my California colleague, our Senior 
Senator, for her ongoing active role in and support of this 
issue. Senator Feinstein has in the last several years played a 
key role in facilitating increased access by to Otay Mountain 
by the Border Patrol, which has resulted in dramatic reductions 
in illegal activity along this border region. She deserves a 
great deal of credit for the progress which has been achieved 
there to date, and I am proud to have her support for this 
legislation, which will be in her capable hands upon being sent 
to the Senate.
    As you are well aware, I first introduced this legislation 
in the 105th Congress as H.R. 3950, on which this Subcommittee 
held a hearing on July 28th of last year. Following this very 
productive hearing, H.R. 3950 was subsequently amended and 
passed unanimously by your Subcommittee in August. This revised 
language, which amended Section 6(b) of H.R. 3950 as introduced 
and was sought and supported by the Administration, reflected 
concerns expressed over the original Section 6(b) by the 
Departments of Justice and Interior, members of this 
Subcommittee, and the environmental community. The practical 
effect of this language, which is also found in H.R. 15, is to 
provide assurance that the Border Patrol and other law 
enforcement agencies will be able to continue to pursue their 
missions of national security in the Otay Mountain region 
effectively and without hindrance, while simultaneously 
protecting the surrounding resources as wilderness and 
maintaining the integrity of the 1964 Wilderness Act.
    I would like to expand on this last point. Many of my 
colleagues, and especially my fellow Californians, have heard 
me speak to the volume and variety of law enforcement 
challenges we face along our southern border, both 
environmental and criminal. As I have made clear to you, Mr. 
Chairman, and to this Subcommittee at the July hearing, I would 
not be pursuing enactment of H.R. 15 in the first place if I 
did not firmly believe that we would be able, at the end of the 
day, to protect this wonderful and rugged place as wilderness 
for future generations of San Diegans and all Americans to 
enjoy, while simultaneously maintaining the formidable 
interdiction capabilities of the Border Patrol which are 
critical to our national security.
    Mr. Chairman, I have remained in close contact with the 
Border Patrol throughout this process, and you will be 
interested to know that it is confident that the wilderness 
designation which will occur under H.R. 15 will be compatible 
with its ongoing mission in years to come. The Border Patrol 
worked closely with the BLM in designating the wilderness 
boundaries for Otay Mountain, including those for the essential 
access roads which they presently use. Indeed, the interagency 
cooperation which has occurred to date has already actually 
improved Border Patrol's ability to deter illegal immigration 
and apprehend the smugglers of narcotics and human beings which 
still unfortunately taint our border regions. The compromise 
language now found in Section 6(b) of H.R. 15 provides the 
ability for this success to continue, based on the flexibility 
found in Section 4(c) of the existing Wilderness Act.
    In years past, the Border Patrol had expressed concerns 
about the potential designation of Otay Mountain as wilderness, 
due largely to its rugged terrain, which served as a ``magnet'' 
for illegal immigration and smuggling activities. However, by 
working with the Bureau of Land Management (BLM) and the 
California Department of Forestry (CDF) to construct new access 
to the area and along the border itself, and repairing and 
improving existing roads, the Border Patrol's ability to 
operate in the region has been greatly improved. There have 
already been noticeable reductions of traffic in both illegal 
immigration and narcotics as a result of this improved access.
    Mr. Chairman, I appreciate the Administration's willingness 
to work with me, your Subcommittee, and other stakeholders to 
develop this compromise language which addresses these concerns 
in a satisfactory manner. I would like to again emphasize that 
I share the legitimate concerns which have been expressed in 
the past about ``setting precedent'' which might be detrimental 
to the landmark Wilderness Act of 1964 or be harmful to 
essential law enforcement activities along our borders; 
however, I am pleased with the level of consensus which now 
exists for this bill amongst the stakeholders. We all want the 
same things--we want to protect the natural beauty of Otay 
Mountain for future generations, we want to maintain strong and 
effective law enforcement at the border, and we want to 
maintain sound wildfire management practices.
    I would like to talk for a moment about the kind of 
precedent which I am interested in setting with this bill, Mr. 
Chairman, because I believe that an important opportunity 
exists before us. Too often in years past, discussion or debate 
of various wilderness proposals have unfortunately been marked 
by conflict rather than consensus, and partisanship rather than 
partnership. I take heart in the fact that while there have 
been differences of opinion as to how best to refine H.R. 15 to 
achieve the results all stakeholders want, they have been 
expressed openly and in good faith, and that constructive 
dialogue has resulted in the legislative product before us 
today. It seems to me that the best legacy we could leave with 
H.R. 15 is beyond that of a simple wilderness bill, important 
though it is.
    I have to believe that there are other regions of 
extraordinary beauty elsewhere in our country, possibly even in 
other border regions, where the critical missions of different 
departments or agencies have historically been viewed as being 
at ``cross-purposes'' with those of resource conservation or 
environmental protection. We have already seen the positive 
environmental results of the Border Patrol's increased access 
to the Otay Mountain wilderness study area and adjoining areas. 
The reductions in illegal smuggling and immigration there has 
directly translated into reduced impact on the resource 
itself--fewer illicit trails beaten through delicate and 
sensitive habitat, less trash and human waste, and, elsewhere 
in the vicinity, fewer sensitive animal and bird species being 
harmed or consumed for food, and less toxic chemical residue 
from makeshift drug labs, to list but a few benefits.
    It is my hope that if we are successful in our efforts to 
designate wilderness at Otay Mountain, we can establish and 
shore up the precedent that wilderness designation is not 
inherently incompatible with critical law enforcement or other 
work being conducted in the same region, and vice versa. We 
should emphasize and support these opportunities, where Federal 
operating strategies can and should be made to complement each 
other, rather than be allowed to run completely independent of 
one another, and at cross purposes. In the instance of H.R. 15 
and Otay Mountain, there is clear benefit to be derived both to 
our natural environment and our law enforcement strategies. 
Given the great importance of both these assets, I would like 
nothing more that to see this bill become law and serve as a 
blueprint for future cooperation and success, in which we can 
all share and benefit.
    Mr. Chairman, thank you again for your consideration of 
this important legislation; I look forward to working with you 
and our colleagues to move H.R. 15 through the House of 
Representatives to the Senate, and ultimately to the 
President's desk. I have some supporting material which I would 
ask to be included in the record, and would be happy to answer 
any questions from the Subcommittee.

           Letter to Mr. Bilbray from Secretary Bruce Babbitt
                     The Secretary of the Interior,
                                            Washington, DC,
                                                  February 3, 1999.
Honorable Brian P. Bilbray
House of Representatives
Washington, D.C. 20515

Dear Mr. Bilbray: Thank you for your letter of December 14, 1998, 
regarding the proposal to designate Otay Mountain in San Diego County 
as wilderness.
    I regret that you were unable to join me on the Otay Mountain tour. 
I was pleased to meet the many individuals and local officials 
committed to preserving the special resources on Otay Mountain.
    The conclusion of the group present was that the time was 
appropriate to designate Otay Mountain as part of the National 
Wilderness Preservation System. Bureau of Land Management Acting 
Director Tom Fry will be testifying on February 4, 1999, before the 
House Resources Subcommittee on National Parks and Public Lands on 
behalf of the Administration in strong support of H.R. 15.
    I look forward to working with you to preserve the unique resources 
of this area as the legislation makes its way through Congress.
            Sincerely,
                                             Bruce Babbitt,
                                                         Secretary.

    Mr. Hansen. Thank you very much. We appreciate your 
testimony.
    Mr. Hayworth.

 STATEMENT OF HON. J.D. HAYWORTH, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Hayworth. Mr. Chairman, I thank you. It is good to see 
members of the Subcommittee, including my good friend from 
Colorado and, yes, Mr. Udall, there are Republican Udalls. In 
fact, the joke my staffer, Chris Udall, likes to tell is that 
your dad and others on your side of the family took a left turn 
out of St. Johns while brother Chris took a right turn out of 
the Round Valley. But be that as it may, we are pleased to see 
you here in the 106th Congress, and my long-time colleagues 
thank you for this opportunity to testify in support of H.R. 
150 or what my staff has taken to calling the Hayworth 
Educational Land Grant Act, or HELGA.
    The idea for HELGA came from legislation I introduced in 
the 104th Congress which became public law. That bill conveyed 
30 acres of U.S. Forest Service land in Apache County, Arizona 
to the Alpine Elementary School District for the purpose of 
building new school facilities. I am very pleased to have the 
principal of the Alpine School, Mr. David Silva, here to 
testify in support of HELGA which seeks to set up a mechanism 
that would allow for similar conveyances of federally-
controlled land to school districts nationwide.
    HELGA would amend the Recreation and Public Purposes Act, 
title 43, section 869 of the U.S. Code to authorize conveyances 
of small parcels of BLM or Forest Service land to public school 
districts. Currently, title 43, section 869 only allows 
conveyances of BLM land for certain purposes.
    The size of any transfer would be limited to 640 acres 
which is the same limitation in title 43, section 869. Land in 
the National Park System, National Wildlife Refuge System, 
National Wilderness Preservation System, National Wild and 
Scenic River System, National Trail System, National Recreation 
areas, and any specially designated lands are strictly 
prohibited from being subject to applications for conveyances. 
If at some point the land was used for non-public purposes, 
ownership of the land would revert back to the Federal 
Government.
    Finally, the Secretary of the Interior, in the case of the 
BLM, and the Secretary of Agriculture, in the case of the 
Forest Service, must respond to applications for land by school 
districts within 60 days. If this deadline is not met, then the 
agency must report to Congress.
    Many school districts, especially rural school districts, 
are financially strapped. For example, I want to briefly tell 
you about the Alpine School District. The district sits within 
Apache County in the eastern part of Arizona near the New 
Mexico border. Eighty-five percent of Apache County is 
federally-controlled land. As a result, the school district has 
relied in the past heavily on proceeds from timber harvesting.
    Unfortunately, due to lawsuits, logging there has been 
halted. Consequently, the timber receipts that have gone toward 
funding the schools have all but dried up. Without a 
conveyance, Alpine's school district could not have afforded to 
pay the estimated $7,500 per acre to purchase land and at the 
same time pay for badly needed new school facilities. The 
prohibitive costs for acreage and new facilities make it nearly 
impossible for those financially strapped districts, like 
Alpine, to survive. However, by conveying land to the Alpine 
District and saving that district one-quarter of a million 
dollars, the district could afford to build new facilities, 
thus reducing class sizes and concentrating money where it is 
most needed, on the students. This is why we need to amend the 
Recreation and Public Purposes Act to include land conveyances 
from school districts on Forest Service lands.
    In a moment, you will also hear from Apache County Board of 
Supervisors Chairman Art Lee and Apache County Manager Clarence 
Bigelow. I look forward to their testimony and their 
explanation of the challenges they face as a result of Apache 
County's large amount of federally-controlled land.
    This situation is not isolated to the Alpine School 
District. As you may recall, last year when I testified before 
the Subcommittee, the city of Globe also testified about 
problems its schools face in rural Gila County. I have also 
received letters from other school districts facing similar 
problems.
    Mr. Chairman, I have only incorporated one minor change to 
the original bill, H.R. 2223, which was introduced in 1997, 
because of the Forest Service's previous testimony. Last 
Congress' bill inadvertently would have allowed disposal of 
Forest Service lands by the Secretary of the Interior, although 
Forest Service lands are currently under the purview of the 
Secretary of Agriculture. I agree with the Forest Service that 
the language in H.R. 2223 did not clearly specify who had 
jurisdiction over Forest Service lands, and so the new bill 
reflects the change.
    Nevertheless, even with this change, I expect the Forest 
Service to argue that the Secretary of Agriculture already has 
existing authority to accommodate public uses through the 
Townsite Act or the Sisk Act. While the Secretary does have the 
authority to convey land through various Acts of Congress, 
these lands can be only conveyed at fair market value. These 
are the same prohibitive costs I am trying to eliminate through 
my bill. Rural districts simply cannot afford the exorbitant 
costs of land and the construction of new school facilities.
    Moreover, it is fair to ask what is more important, 
ensuring that Federal land is purchased at fair market value or 
that children are educated in adequate facilities. Mr. 
Chairman, the answer is obvious to me--that latter proposition, 
our children, are our most precious resource.
    The Forest Service may also say that the government must be 
compensated for ceding Federal land to local education 
agencies. I would like to remind the Forest Service and the 
Subcommittee of two things: first, many States, especially 
those in the West, agreed to hand over large amounts of their 
land to the Federal Government in order to join the Union. The 
least we can do is give some of this land back to some of our 
most important constituents, our children. Second, while the 
Forest Service claims they are concerned that they will lose 
money by ceding land to various school districts, the 
Congressional Budget Office has scored my bill and concluded 
that HELGA would, ``have no significant impact on the Federal 
budget.''
    Mr. Chairman, on both sides of the aisle, Members of 
Congress have talked about the importance of education. HELGA 
is a common sense proposal we can all agree on, because it will 
allow economically-challenged school districts throughout the 
U.S. to put more money where it counts, in the classroom. This 
is a goal I know we all support, and I hope this Subcommittee 
will act quickly and decisively on this legislation in order 
that we might help school children throughout rural America.
    Thanks again, Mr. Chairman, and other members of this 
Subcommittee. I look forward to any questions you might have 
concerning HELGA.
    [The prepared statement of Mr. Hayworth follows:]

Statement of Hon. J.D. Hayworth, a Representative in Congress from the 
                            State of Arizona

    Mr. Chairman, members of the Subcommittee, and 
distinguished guests, thank you for allowing me to testify in 
support of H.R. 150, what my staff has taken to calling the 
Hayworth Education Land Grant Act or HELGA. It is indeed a 
great honor to be before the Committee on which I was very 
proud to serve during the 104th Congress.
    The idea for HELGA came from legislation I introduced in 
the 104th Congress that became public law. That bill conveyed 
30 acres of U.S. Forest Service land in Apache County, Arizona 
to the Alpine Elementary School District for the purpose of 
building new school facilities. I am very proud to have the 
principal of the Alpine School, Mr. David Silva, here to 
testify in support of HELGA, which seeks to set up a mechanism 
that would allow for similar conveyances of federally-
controlled land to local school districts nationwide.
    In President Clinton's last three State of the Union 
addresses, he advocated spending $5 billion on new school 
construction. While I have serious reservations about the 
President's plan because of constitutional concerns, HELGA 
offers a way to help rural school districts with construction 
at little or no cost to the Federal Government. If the 
Administration is sincere in its efforts to help local 
communities build new schools, it should endorse this proposal 
unequivocally.
    HELGA would amend the Recreation and Public Purposes Act--
Title 43, Section 869 of the U.S. Code--to authorize 
conveyances of small parcels of BLM or Forest Service land to 
public school districts. Currently, Title 43, Section 869 only 
allows conveyances of BLM land for certain purposes.
    The size of any transfer would be limited to 640 acres, 
which is the same limitation in Title 43, Section 869. Land in 
the National Park System, National Wildlife Refuge System, 
National Wilderness Preservation System, National Wild and 
Scenic Rivers System, National Trails System, National 
Recreation Areas, and any specially-designated lands are 
strictly prohibited from being subject to applications for 
conveyances. In other words, HELGA would not affect Federal 
lands of national significance. If at some point the land was 
used for non-public purposes, ownership of the land would 
revert back to the Federal Government.
    Finally, the Secretary of the Interior, in the case of the 
BLM, and the Secretary of Agriculture, in the case of the 
Forest Service, must respond to applications for land by school 
districts within 60 days. If this deadline is not met, the 
agency must report to Congress.
    As you know, Mr. Chairman, private land in the West is very 
expensive. And, while most federally-controlled land is located 
in the West, westerners also face another problem: rapidly 
growing populations. In fact, Arizona, Utah, and Nevada are the 
three fastest growing states in the nation. With less and less 
private land on which to build schools and other public 
facilities, the West will increasingly need to find new 
solutions to its growth problems. HELGA is one of the ways we 
can alleviate some of the West's concerns and, at the same 
time, help our children receive the education they need and 
deserve.
    And while the West is growing rapidly, many school 
districts are financially-strapped for cash. For example, let 
me tell you about the Alpine School District's predicament. The 
district lies within Apache County, in the eastern part of 
Arizona near the New Mexico border. Some 85 percent of Apache 
County is federally-controlled land. As a result, the school 
district relies heavily on proceeds from timber harvesting.
    Unfortunately, due to lawsuits, logging has been halted. 
Consequently, the timber receipts that had gone toward funding 
the schools have all but dried up. Without a conveyance, Alpine 
School District could not have afforded to pay the estimated 
$7,500 per acre to purchase land and, at the same time, pay for 
badly needed new school facilities.
    The prohibitive costs for acreage and new schools make it 
nearly impossible for financially strapped school districts, 
like Alpine, to survive. However, by conveying land to the 
Alpine School District and saving the district $225,000, the 
district could afford to build new facilities, thus reducing 
class sizes and concentrating money where it is most needed: on 
the students. That is why we need to amend the Recreation and 
Public Purposes Act to include land conveyances for school 
districts on Forest Service lands. In a moment, you will hear 
from Apache County Board of Supervisors Chairman Art Lee and 
Apache County Manager Clarence Bigelow. I look forward to their 
testimony and their explanation of the challenges they face as 
a result of Apache County's large amount of federally-
controlled land.
    This situation isn't isolated to the Alpine School 
District. As you may recall, last year when I testified before 
the Subcommittee, the City of Globe also testified about 
problems its schools face in rural Gila County. This county is 
the size of the state of Connecticut, yet only 3 percent of its 
land is under private control. The government controls an 
amazing 97 percent of the land. Globe's population is growing, 
but the schools are hamstrung by the prohibitive costs of 
buying acreage and paying for improved school facilities. HELGA 
is a simple way to help rural, economically-strapped school 
districts.
    Mr. Chairman, I have only incorporated one minor change to 
the original bill--H.R. 2223--I introduced in 1997 because of 
the Forest Service's previous testimony. Last Congress's bill 
inadvertently would have allowed disposal of Forest Service 
lands by the Secretary of the Interior, although Forest Service 
lands are currently under the purview of the Secretary of the 
Agriculture. I agree with the Forest Service that the language 
in H.R. 2223 did not clearly specify who had jurisdiction over 
Forest Service lands, so the new bill reflects this change.
    Nevertheless, even with this change, I expect the Forest 
Service to argue that the Secretary of Agriculture already has 
existing authority to accommodate public uses through the 
Townsite Act or the Sisk Act. While the Secretary does have the 
authority to convey land through various Acts of Congress, 
these lands can only be conveyed at ``fair market value.'' 
These are the same prohibitive costs that I am trying to 
eliminate through my bill. Rural school districts simply cannot 
afford the exorbitant costs of land and new school facilities. 
Moreover, what is more important--ensuring that Federal land is 
purchased at fair market value or that children are educated in 
adequate facilities? Mr. Chairman, the answer is obvious to me.
    My friends from the Forest Service may also argue that the 
government must be compensated for ceding Federal land to local 
education agencies. I would remind the Forest Service of two 
things. First, the states in the West agreed to hand over large 
amounts of their land to the Federal Government in order to 
join the union. The least we can do is give some of this land 
back to some of our most important constituents: children. 
Second, while the Forest Service claims they are concerned they 
will lose money by ceding land to various school districts, the 
Congressional Budget Office (CBO) has scored my bill and 
concluded that HELGA would ``have no significant impact on the 
Federal budget.''
    Mr. Chairman, on both sides of the aisle, we have talked 
about the importance of education. HELGA is a commonsense 
proposal that we all can agree on because it will allow 
economically strapped school districts throughout the United 
States to put more money where it counts: in the classroom. 
This is a goal we all support, and I hope that this 
Subcommittee will act quickly and decisively on this 
legislation to help our school children in rural America.
    Thanks again to you, Mr. Chairman and members of the 
Subcommittee, for allowing me to testify. I will remain here to 
answer any questions you may have regarding HELGA.

    [The information may be found at end of hearing.]
    Mr. Hansen. Thank you, Mr. Hayworth.
    The gentleman from Colorado, Mr. Hefley.

  STATEMENT OF HON. JOEL HEFLEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Hefley. Thank you, Mr. Chairman. I, too, would like to 
welcome my colleague from Colorado, the new gentleman from 
there, but I would also like to make a motion that this 
Committee cannot have two people by the same name on the 
Committee----
    [Laughter.]
    [continuing] if you father and uncle's picture is hanging 
in the room, or something about that.
    Mr. Chairman, I apologize for having to take up the time of 
this Committee with this bill again this year. We worked very 
hard on it last year. This was a bill that there was 
cooperation between everybody--Democrats, Republicans, the 
legislative branch in the form of this Committee, the 
administration in the form of the Interior Department, and, 
certainly, the Motion Picture Association--to try to work out a 
bill that everybody was happy with, and it passed the House 
without any trouble whatsoever, and then got involved in the 
machinations of the Senate in the last days over there where it 
got involved with being held hostage for something else and all 
that kind of thing. And, so here we are again, and I really 
appreciate the Chairman bringing this up early in the session 
so that maybe we can work our way through that.
    Prior to 1948, filmmakers paid a market price to film on 
public land, but for some reason that practice was banned by 
regulation in 1948. This bill directs the Interior Department 
to develop a uniform policy for the collection of fees for the 
making of any motion picture, television production, 
soundtrack, or similar project for commercial purposes if it is 
determined that those uses are appropriate to and will not 
impair the value and resources of the land and facilities. The 
bill directs that these fees provide a fair return to the 
government and not less than the government's direct and 
indirect cost of processing applications and the use of the 
land and facilities, including necessary cleanup and 
restoration.
    In drafting this policy, Interior is directed to develop a 
standard schedule of rates for such factors as the number of 
people on the site, the length of the stay, service to 
services, and use of special areas. This was suggested by a 
policy initiated by the Forest Service in California last year. 
Newsreel, news television productions, and most still 
photographers say those that are using props and models or sets 
would be exempt from the fees. Any proceeds resulting from this 
policy would be dispersed according to Rec Fee Demo Program. In 
other words, 80 percent of those proceeds would remain in the 
unit where filming takes place to be used for maintenance 
needs. The remaining 20 percent would go towards servicewide 
use.
    In this bill, we have tried to strike a balance between the 
flexibility Interior wants and the certainty that the industry 
needs. A rate schedule will allow the industry a quick, 
ballpark estimate of the minimum cost for filming on public 
land. The regulatory approach recognizes there will be cases 
where the resources involved demand special treatment.
    I believe everyone involved in the drafting of this 
legislation wants to see filming continue on public land. You 
know, for many folks this may be the only way they ever see the 
great jewels of our park system, the Yellowstones, and the 
Grand Canyons, and so forth. We want them to film on public 
land. It is good, I think, for the country; it is good for the 
economy. We want them to do it; we want them to have some 
certainty about what it is going to cost, so that that is not 
an arbitrary thing, and we want them to do it in such a way 
that it does not harm the resource.
    I think this bill sets the framework that will be to the 
benefit of everybody, and I particularly again want to thank 
the Motion Picture Association for working with us so 
diligently on this. They will testify a little later. I think 
we have got a good bill, Mr. Chairman. We had a good bill last 
year; I think we have a good bill this year, and maybe by 
starting this early, we can actually get it through the entire 
process. Thank you very much.
    [The prepared statement of Mr. Hefley follows:]

 Statement of Hon. Joel Hefley, a Representative in Congress from the 
                           State of Colorado

    Mr. Chairman, H.R. 154 seeks to correct an inequity that 
has existed within the Department of Interior for more than 50 
years--a prohibition on the collection of fees by the National 
Park Service and the U.S. Fish & Wildlife Service for 
commercial filming on the lands they administer.
    Prior to 1948, these agencies charged fees for the use of 
public lands for filming. I suppose many Americans got their 
first taste of the West through the classic Westerns of John 
Ford. Many of those films were made on public lands in Utah and 
Mr. Ford paid a standard fee for the use of those lands. But, 
for some reason known but to God, that practice was ended in 
1948 and there it rested until last year when a constituent of 
mine wrote to ask why film makers like Steven Spielberg could 
film on public land for no more than the permit fee. It turned 
out she was right and this bill is the result.
    H.R. 154 directs the Secretary of Interior to develop a 
policy for the collection of fees for the making of any motion 
picture, television production, soundtrack or similar project, 
for commercial purposes on lands administered by Interior 
agencies, if the Secretary determines that use will not impair 
the values and resources of the land and facilities.
    The bill directs the Secretary to require a payment of fees 
in an amount determined to provide a fair return to the 
government and that said fee shall not be less than the direct 
and indirect costs to the government for processing permit 
applications and for the use of the land and facilities, 
including any necessary cleanup and restoration.
    The bill further directs the Secretary, as part of this 
policy, to develop a schedule of rates for fees based on such 
factors as the number of people on site under a permit, the 
duration of their stay, surface disturbances and the use of 
special areas. These factors were drawn from a similar policy 
launched by some regions of the U.S. Forest Service last year.
    It exempts from fees bonafide newsreel or news television 
production and most still photographers, save those using 
models, sets or props.
    The bill further directs that proceeds from this policy 
shall be available without appropriation to be used by Interior 
in accordance with the formula and purposes outlined under the 
Recreation Fee Demonstration Program. Penalties will be in 
accordance with Title 18 of the U.S. Code. After some 
discussion, it was decided that film makers should be treated 
the same as any other permittee, whether that permittee grazes 
cattle, chops down a tree, mines coal or makes a movie.
    Finally, the bill stipulates that this legislation go into 
effect 180 days after enactment, that the Secretary review and 
revise regulations issued as a result of this legislation 
within three years after enactment, and that he periodically 
review and revise those regulations, as needed, over time.
    This bill is the product of a great deal of cooperation 
between both sides of the aisle in this Committee, from the 
Interior Department and from the Motion Picture Industry. We 
have tried to balance the film industry's needs for certainty 
with the Interior Department's desire for flexibility. I think 
we have had some success achieving that balance.
    This bill remained an active item on the agenda of the 
105th until the day it recessed. Despite a concerted effort by 
members and administration representatives including, I 
believe, Secretary Babbitt, it somehow fell through the cracks 
on the last day. It is my hope that we can avoid a repeat of 
that this year and that we can pass this bill, put the needed 
policy in place and get moving on this issue. There's no reason 
why we shouldn't be able to.
    We all want to see filming continue on the public lands; 
the more people see them, the more will be stimulated to visit 
them. Even the film industry admits its only fair that one of 
the nation's leading industries and exporters pay a fair price 
for the use of these lands. It's possible revenues from this 
policy will take care of some maintenance needs on our public 
lands. At the same time, we don't want to see our public lands 
turned into sound stages. I think H.R. 154 can accomplish this. 
I urge your support.

    [The information may be found at end of hearing.]
    Mr. Hansen. Thank you, Mr. Hefley.
    Questions for our colleagues? Mr. Romero-Barcelo.
    Mr. Romero-Barcelo. We have no questions. We just want to 
thank the witnesses for bringing forward the bills.
    Mr. Hansen. Thank you. Mr. Hefley, do you want to ask 
yourself any questions------
    [Laughter.]
    [continuing] or ask our two colleagues anything?
    Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman. Just two comments--I 
didn't have questions, but I wanted to first acknowledge my 
colleague from Colorado, and I am new around here, as you know, 
and I would love to co-sponsor your bill. I think it sounds 
like it is a very, very important piece of legislation and 
would like to do that. Secondly, I would just like to thank the 
Chairman and Congressman Bilbray for bringing forward this BLM 
wilderness bill. I know in Colorado we have a maturing 
situation there with a lot of BLM lands, and I am looking 
forward to having a discussion about what we do with those 
lands as well. So, I appreciate that. Thank you.
    Mr. Hansen. Thank you, Mr. Udall. I have no questions for 
you.
    Gentlemen, if you would like to come up and join us, we 
would be pleased and privileged to have you with us.
    We will call our first panel. Mr. Tom Fry, Acting Director 
of Bureau of Land Management; Mr. Paul Brouha, Associate Deputy 
Chief, U.S. Forest Service; Mr. Stephen Saunders, Deputy 
Assistant Secretary, Fish, Wildlife, and Parks. If the 
gentlemen would like to take their place.
    Gentlemen, we are privileged to have you here. The rules of 
this Committee are that you get five minutes. Seeing this 
morning we don't have too many folks here, we would be more 
than pleased if you--I was going to say go over, but I don't 
really mean that--please stay within your time. If you really 
have to go over a minute or two, I won't bang the gavel on you. 
You will see in front you just like a traffic light--green 
means go, yellow means wrap it up, and red means stop. So, five 
minutes goes in a hurry.
    Mr. Fry, it is a pleasure to see you again, sir, and we 
will start with you if that is all right.

     STATEMENT OF TOM FRY, ACTING DIRECTOR, BUREAU OF LAND 
                           MANAGEMENT

    Mr. Fry. Thank you very much, Mr. Chairman. It is a 
pleasure to be here and to be on this panel. I would like to 
ask that my written remarks be made a part of the record.
    Mr. Hansen. Thank you. Without objection, so ordered, and 
that will be the case on all witnesses today. If you want to 
abbreviate your statement, your written comments will be part 
of the record.
    Mr. Fry. Mr. Chairman, I want to thank Congressman Bilbray 
for his efforts on behalf of the Otay Mountain Wilderness bill. 
He had a similar bill last year that we were able to support. 
There were some changes made to the bill in Committee markup 
last Congress. The administration supported the bill last year, 
so I am here again today to reiterate that support for the bill 
as introduced by Congressman Bilbray.
    Secretary Babbitt has taken a personal interest in the Otay 
Mountains and the Otay Mountain wilderness. He has recently 
made a trip there and had an opportunity to tour the area with 
Representative Filner from San Diego County, the San Diego 
County Association of Governments, the California Biodiversity 
Council, the Sierra Club, the Endangered Habitat League, the 
Wilderness Society, the U.S. Border Patrol, BLM, and 
representatives from Senators Feinstein and Boxer's office. At 
the end of that tour, the Secretary reiterated his support for 
wilderness designation for this area.
    I think I can represent, on behalf of all the parties 
involved, that everybody thinks this is an appropriate area for 
wilderness as it's currently drawn on the map. There have 
obviously been some questions raised about section 6(b), the 
provision of the bill which pertains to the Border Patrol and 
activities within the wilderness area. This is something that 
we have looked at with great interest within the 
administration.
    The 6(b) language of this bill has been approved by the 
Justice Department in consultation with the Border Patrol and 
with the Department of the Interior, and we are fully 
supportive of the language that is currently in the bill. We 
recognize that others may differ with some of the language, and 
reasonable people can differ, but we think that this is the 
appropriate language that provides a good balance between 
protecting the interest of the Border Patrol and also 
protecting the standards of the 1964 Wilderness Act.
    So, with that, Mr. Chairman, I recommend to this Committee 
that you report this bill, and we look forward to working with 
you to getting it through the entire Congress.
    [The prepared statement of Mr. Fry may be found at end of 
hearing.]
    Mr. Hansen. Well, thank you, Mr. Fry. I appreciate your 
comments.
    Mr. Brouha.

 STATEMENT OF PAUL BROUHA, ASSOCIATE DEPUTY CHIEF, U.S. FOREST 
                            SERVICE

    Mr. Brouha. Mr. Chairman, members of the Subcommittee, good 
morning, and thank you for the opportunity to present the 
administration's views concerning H.R. 150 which are the 
amendments to the Recreation and Public Purposes Act in order 
to dispose of National Forest lands to education agencies. The 
administration commented on the previous bill, H.R. 2223, 
regarding this subject during a hearing before this 
Subcommittee last year.
    I am accompanied today by Mr. James B. Snow, who is the 
Deputy Assistant General Counsel for the Department of 
Agriculture. In the matter of land use law, we may need to use 
his skills and knowledge.
    While the administration supports the objective of making 
Federal lands available under certain circumstances for public 
purposes, the administration strongly opposes this bill. First, 
the bill is unnecessary because current statutory authority 
exists to make land available for educational purposes. Second, 
the bill would permit the disposal of National Forest lands for 
less than fair market value. And, third, the deadline 
requirement to make the conveyance within 60 days is entirely 
inadequate.
    Let me expand a little bit. The administration appreciates 
the efforts that the Subcommittee has made to address the 
concern raised last year regarding H.R. 2223, but we continue 
to have serious problems with the bill. First, to include the 
disposal of National Forest lands for public purposes under the 
Recreation and Public Purposes Act of 1926 is unnecessary 
because the Secretary of Agriculture has existing authorities 
to accommodate public uses through authorities to permit, 
lease, and exchange or dispose of National Forest lands.
    For example, under the Townsite Act, the Secretary of 
Agriculture may convey full fair market value up to 640 acres 
of land to establish communities located in the State of Alaska 
or in the contiguous western States. Within certain limits, the 
Sisk Act of 1967 authorizes the Secretary of Agriculture to 
exchange lands with States, communities, or municipal 
governments or public school districts for lands or lands and 
money. Moreover, the Secretary of Agriculture can exchange 
National Forest lands with State and local government.
    Secondly, the administration objects to H.R. 150 because it 
would permit the disposable of National Forest lands for less 
than fair market value. The taxpayers of the United States 
should receive fair market value for the sale, exchange, or use 
of their National Forest land.
    Unlike the R&PPA, other land exchange laws require the 
Secretary of Agriculture to obtain fair market value for the 
exchanges or sales of the National Forest. Indeed, Federal 
policy backed by bipartisan consensus in the executive and 
legislative branches in recent decades has moved towards 
maximizing the return to the public for the value of the lands 
conveyed out of the Federal estate. The administration objects 
to legislation that would reverse that policy by opening the 
door to less than fair market value, consideration for the 
disposal of National Forest lands.
    Third, the administration objects to the requirement that 
within 60 days a decision on these conveyances must be made. 
Decisions about the appropriate use of National Forest lands 
and resources are accomplished through the forest planning 
processes that are identified under the National Forest 
Management Act and the National Environmental Policy Act. Under 
NFMA and NEPA, the Forest Services analyzes important 
environmental considerations, and the public is intensively 
involved.
    During this process, local Forest Service officials work 
closely with State and local governments to identify their 
concerns, the needs for the land, and lands appropriate for 
land ownership adjustments. These processes take time, and 
since every land adjustment is unique, it would be difficult to 
determine an appropriate amount of time necessary to complete 
environmental analyses. In fact, such a limit would only serve 
to create expectations that the agency could not meet and 
undermine the credibility of its public development processes 
and environmental analysis. The agency strongly believes that 
attempts to short-circuit environmental and public processes 
will only lead to more controversy.
    In closing, Mr. Chairman, while the administration supports 
the general objective of making Federal lands available for 
educational purposes, the administration strongly opposes H.R. 
150. However, the administration remains open to discussions 
with the Subcommittee on other ideas for this bill.
    This concludes my statement. I would be happy to answer 
questions, sir.
    [The prepared statement of Mr. Brouha may be found at end 
of hearing.]
    Mr. Hansen. Thank you very much. I appreciate your 
statement.
    Mr. Saunders, we will turn the time to you, sir.

  STATEMENT OF STEPHEN SAUNDERS, DEPUTY ASSISTANT SECRETARY, 
                   FISH, WILDLIFE, AND PARKS

    Mr. Saunders. Thank you, Mr. Chairman, I am happy to join 
the choir singing the praises of H.R. 154. I think there will 
be more praise sung by your third panel from the key interest 
groups that are involved in this. We are strongly supportive of 
this bill even though it is perhaps unusual for somebody from a 
Department to come and say that about a problem that is really 
created by the Department itself.
    For the past half-century, we have had a regulation on our 
books that keeps the Park Service from recovering fees for the 
use of the resources in our National Parks. For the past 40 
years, that has also applied to the Fish and Wildlife Service, 
and there is no real sense for that. We can't even find out why 
that was done to begin with.
    The Fish and Wildlife Service and the Park Service would 
like join to BLM and the Forest Service in being able to charge 
some kind of fee that would ensure a fair return to the 
taxpayers for the use of the resources. State and local 
governments do this; tribes do it. We see no reason why we 
should tie our hands the way we have.
    The bill has been worked out. As has been said, we enjoyed 
the opportunity to work with you on it last year. I think the 
success in having everybody reach agreement was shown by the 
vote in the House, and we see no reason why the Senate 
shouldn't go along, and we thank you, Mr. Chairman, for your 
action on this early in the year.
    I would be happy to answer any questions you may have.
    [The prepared statement of Mr. Saunders may be found at end 
of hearing.]
    Mr. Hansen. Thank you very much. We appreciate that 
positive response.
    Questions now for the panel? The gentleman from Puerto Rico 
will be recognized for five minutes.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman. Yes, I do have 
questions for Mr. Brouha.
    Mr. Brouha, I understand from your testimony that you 
currently have the authority to make available National Forest 
land for public school purposes. Do you in fact use this 
authority?
    Mr. Brouha. Yes, we do, sir.
    Mr. Romero-Barcelo. Can you give us an idea of how many 
schools you have permitted on National Forest land using the 
current authority?
    Mr. Brouha. We have made use of the authorities that are 
available to us under the Townsite Act approximately nine times 
in the past 10 years.
    Mr. Romero-Barcelo. Nine times in the past 10 years?
    Mr. Brouha. Yes, and we have six that are currently under 
processing. And then under the Sisk Act, we have about 25 
applications and transfers that have occurred during the last 
decade.
    Mr. Romero-Barcelo. You have only used it nine times in the 
past 10 years. How long is the average time that it takes from 
the time that the land is requested to the time that the land 
has been given for the education purposes? Is there an average 
amount of time? Is it a short time? Is it years? Is it months?
    Mr. Brouha. Well, let me clarify a point, sir, if I may. 
When I refer to nine times, they weren't necessarily all for 
educational purposes, but the length of the process normally 
takes one or two years.
    Mr. Romero-Barcelo. One or two years. So, the school would 
have to wait for one or two years until the land would be made 
available to them under the present process.
    Mr. Brouha. That is correct.
    Mr. Romero-Barcelo. The other thing I would like to say: 
You mentioned in your testimony that the taxpayers should be 
reimbursed for this land. Now, if this were being given to 
private purposes, I can see that, but this is also being given 
for taxpayers. I mean they are for the children of taxpayers. 
So, I don't understand taking money from one pocket to put it 
in the other pocket. I don't understand that concept of making 
that fair market value of the land when it is for educational 
purposes. Don't we in the Federal Government have many 
instances where land is given to the States or to local 
communities when they are for educational purposes and for 
health purposes for free?
    Mr. Brouha. We do, in fact, have many instances of those 
conveyances having been made under the existing authorities 
that the BLM enjoys for this current Act. However, the track 
record for the Forest Service and the Department of Agriculture 
is because this was a reservation from the public estate has 
been to require fair market value as provided for under the 
Townsite Act and under the Sisk Act.
    Mr. Romero-Barcelo. I know, that is what the law is now, 
but because that is the law is that fair that the fair market 
value exacted for land that is going to be used for educational 
purposes?
    Mr. Brouha. Again, I think the Congress has made that 
assessment and essentially reinforced that concept over time 
and recently so, in fact.
    Mr. Romero-Barcelo. That is what we are trying to 
reevaluate here.
    Mr. Brouha. Yes, sir.
    Mr. Romero-Barcelo. Well, thank you very much.
    Mr. Hansen. Mr. Hefley.
    Mr. Hefley. Well, you know, my line of questioning would 
fall within the same line of my friend from Puerto Rico's was. 
When States like Arizona and Colorado and many of the western 
States were settled, one of the reasons that we ended up with 
so much Federal land is no one wanted it then. I mean, this 
wasn't land that was good for homesteading, and no one really 
wanted it. So, the Federal Government took it to use for good 
public purposes or at least to hold it and maintain it and so 
forth. And it seems to me that if we find a good public purpose 
for it, that it doesn't make any sense to make a little, poor 
school district somewhere in Arizona have to pay full market 
value, maybe development cost value and that kind of thing, for 
the land. If a better public purpose than just having it sit 
there is to have a school on it, somehow or other it seems to 
me that that is the direction we ought to go. And you are 
saying the Department would resist that kind of change in the 
law? You said that we had established this policy of fair 
market value, but if we want to change that policy based upon 
higher and better use of the public land, not to a commercial 
enterprise but to something like education, would you resist 
that kind of a concept? Would you resist that kind of a change?
    Mr. Brouha. Sir, again, I think it is certainly within the 
prerogative of the Congress to make that assessment. However, I 
might point out that ``camel's nose under the tent'' sort of 
applies here, because while we support education, we also 
support public health, fire and police protection, the citing 
of court houses, and municipal facilities. So, at this point, I 
think you could see how this notion then gets expanded, and the 
point then becomes where do you stop it? And the Congress in 
the past has agreed that fair market value was a requirement, 
and, again, that may be something you wish to reevaluate.
    Mr. Hefley. Well, you might want to look at the base 
closing process where we also have the requirement of fair 
market value, but we do make exceptions many time. We have made 
exceptions during these last three base closing or four base 
closure rounds for other good public purposes. And the 
Department might want to reevaluate that, and this might be a 
kicker to get them to do that. It seems to me that--like my 
friend said--that taking it out of one pocket and putting it in 
the other and particularly a pocket which doesn't have it; a 
poor school district in Arizona which doesn't have the money to 
take out of that pocket, it seems to me this is a way we can 
help them with a good public purpose, and I would hope that the 
Congress and the Department would reevaluate it. Thank you very 
much.
    Mr. Hansen. Thank you. The gentleman from Colorado, Mr. 
Udall.
    Mr. Udall. Mr. Chairman, I have nothing to say. I must have 
made a mistake--the same mistake you make at an auction, 
scratching your ear or putting your hand up. So, I have nothing 
to say, I am just listening. Thank you, sir.
    Mr. Hansen. Thank you. The gentleman from Washington, Mr. 
Inslee.
    Mr. Inslee. I am with Mr. Udall on this, Mr. Chair.
    [Laughter.]
    Mr. Hansen. Okay, thank you. The gentleman from Arizona, 
Mr. Hayworth.
    Mr. Hayworth. I thank the Chairman, and I thank my 
colleague from Puerto Rico and my colleague from Colorado for 
their line of inquiry and their very valid observations. Let me 
thank the witnesses who are here.
    Mr. Brouha, I listened with great interest to your 
testimony, and let me preface my remarks mindful of your 
testimony to make the common observation that any piece of 
legislation at the Subcommit-

tee and the Full Committee level is a work in progress. And I 
understand the administration's concern about the time period 
involved in reviewing local school districts' applications, but 
I would also just call on you to reiterate or perhaps amplify 
your response to my colleague from Puerto Rico. In the past, 
under the curtain of the current legislation and the ability 
administratively to set aside land for educational purposes, 
would you again repeat the answer you gave to my friend from 
Puerto Rico? How many times has this been utilized in say the 
last 10 years?
    Mr. Brouha. In the last 10 years, the Secretary of 
Agriculture has made National Forest lands available to 
communities adjacent to National Forests in the 11 contiguous 
western States and Alaska in 9 cases. We are currently working 
on an additional six. Of those nine completed cases, six were 
in the Southwest. Of the six ongoing cases, five are in region 
3. And in the last 10 years--that is under the authority of the 
Townsite Act--and in the last 10 years, under the authority of 
the Sisk Act, we have made National Forest lands available to 
States, counties, or municipal governments for publics in 25 
cases. We are currently working on an additional four cases, 
and this doesn't include the exchanges that we have made for 
other appropriate parcels of land.
    Mr. Hayworth. So, with a quick mathematical check, 
combining those two existing avenues of administrative ability, 
under 50 cases--that is fair to say--in under 50 cases has this 
been utilized--I think we can both agree on that observation. 
And if I am not mistaken, in response to my colleague from 
Puerto Rico, you were saying the average time limit to 
effectuate some sort of change of this type has been between 
one or two years?
    Mr. Brouha. That is right, but there is an ability to 
permit those sites for those uses much more rapidly. So, the 
effect is not to, in fact, prevent the use of them.
    Mr. Hayworth. Let me just say this to members of the 
Subcommittee and to you, Mr. Brouha, as you represent the 
Forest Service: If the Secretary of Interior or the Secretary 
of Agriculture or someone needs 90 days to review the 
application, I am not averse to that. What I think we are going 
to hear in subsequent testimony, what I found from personal 
experience--and my colleagues who are new to the Congress might 
be interested in this--when the people of the Alpine School 
District came to me--and what you are going to find in the 
States from the West that you represent--right now, we kind of 
have a crazy quilt process where you have to draw up an 
individual piece of legislation or work administratively over a 
long, long period of time to effectuate the change.
    The good news for the Alpine District, as will be testified 
later, Mr. Chairman, is the fact that we were able to get this 
done literally on the last day of the 104th Congress in a huge 
piece of legislation. It is good news that we eventually got it 
done, but the purpose of the legislation is to set up a uniform 
way to get this done to effectuate the change that my colleague 
from Puerto Rico pointed out, amplified by my colleague from 
Colorado and to serve our children--and I know this is not your 
area, Mr. Brouha, nor will I ask you to try and quantify as we 
talk about fair market value of Federal land. I know there is 
no way to quantify the value of improving education for our 
children especially children, because that comes under the 
category of priceless.
    Just one final question: Do you dispute the finding of the 
Congressional Budget Office which said--as I pointed out in my 
testimony--that HELGA would ``have no significant impact on the 
Federal budget?'' Do you dispute that?
    Mr. Brouha. Given the $3.7 trillion budget, sir, I would 
hardly be able to dispute that.
    Mr. Hayworth. I thank you for your testimony and your 
courtesy, and I thank the Chairman and yield back the balance 
of my time.
    Mr. Hansen. I thank the gentleman from Arizona.
    Mr. Brouha, you find yourself in a position of coming up 
here representing the Forest Service, and we don't mean to be 
unkind or beat up on you, but of all the three bills we are 
looking at, you have the controversial one. And this is my 19th 
year on this Committee. I guess I could give you a list, quite 
a long list, of where we have given and traded and sold land 
that wasn't really market value.
    The other question comes up, determining market value is 
not an easy thing to do. And as the gentlemen have all pointed 
out, public policy has a lot to do with that. What is right? 
For example, myself and Mr. Hefley work on the Armed Services 
Committee and sometimes a mountain home, for example, up near 
Idaho got a bombing range. Maybe it isn't Federal for Federal, 
but this is another thing that the public does, whether it be 
State, and the list just goes on and on of people who don't get 
that.
    So, we don't mean to be unkind to you in any way; please 
don't take it that way, but I think you will find a consensus 
of both sides of the political aisle will beat up on you a 
little bit on this one, because we are a little concerned when 
a school district--and we know how tough it is to raise our 
kids. And, frankly, out in the West, we have this problem. The 
Federal Government owns most of our land, and we have this 
little thing we call payment in lieu of taxes, and myself and 
the gentleman from Montana changed that some time ago, but the 
Forest Service, BLM, and others--I am not blaming them; 
Congress has more to do with it than they do--we don't really 
live up to it.
    So, the Forest Service comes out; the BLM comes out; they 
play on our ground; they bring people out. The people they 
bring out cause fires; they cause trash; they cause accidents, 
and they ask our little broke counties to go fix those things. 
So, we run out and do it, but yet they don't pay their share.
    So, here you are, if you are a county commissioner in any 
one of those western States; you put in your budget payment in 
lieu of taxes, and you are counting on it. Yet, they don't pay 
their share. Rarely do they pay their share. In my 19 years in 
Congress I haven't seen them ever pay their share. In Garfield 
County in Utah, it is 97 percent owned by the Federal 
Government and most of that is Forest Service. So then when it 
comes down to trading some ground, they want their full share, 
and I use that as my example.
    Let me just ask you, I noticed from your testimony I think 
you have three main concerns. Your first concern is that you 
said they have the ability to give land to schools under the 
Townsite and Sisk Act. I just want to make sure I understand 
the situation. Does the Townsite Act or the Sisk Act give the 
Forest Service the authority to sell land to a school at less 
than full market value?
    Mr. Brouha. No, it does not.
    Mr. Hansen. Say it a little louder, please.
    Mr. Brouha. No, it does not.
    Mr. Hansen. So, if Alpine School District needs to buy land 
at less than market value, neither of those Acts will help us, 
is that right?
    Mr. Brouha. Not with the Forest Service, no, sir.
    Mr. Hansen. Second, the administration says it is strongly 
opposed to selling land to schools at less than full market, 
and I guess we could ask why, but that has been pretty well 
handled by my colleagues in what they have talked about.
    And, finally, the Forest Service feels that 60 days is too 
short to make the RPPA decisions. Actually, you probably have a 
good point there, and I would like to get any suggestions that 
Forest Service could give us on how we could alter the bill to 
give your agents here a little more flexibility while keeping 
in mind, of course, the intent of the requirement which is to 
expedite these sort of decisions.
    I want to point out to you basically public policy is to 
try and help American citizens, and military are swapping 
ground around like it is going out of style constantly, because 
we feel the need to protect the security of America. The same 
thing with some States which we did the school trust land with 
BLM not too--last year which was a dramatic change. But I 
honestly feel that in a situation--we are not asking Chrysler 
and Mercedes Benz to put something up there, we are asking a 
rather--if it is like you Don--I think it is--these school 
districts are barely making it; not enough money to do it, and, 
yet there are kids all over the place and somehow we have to 
educate them. Frankly, I feel you are going to find a consensus 
of this House and both political parties will be to make a 
change here. I would suggest very strongly that you work out 
some kind of flexibility or suggestions to us to make a change 
on issues of public policy. Yes, sir, go ahead.
    Mr. Brouha. If I may comment, sir. The fundamental 
difference, I think, is with respect to the Bureau of Land 
Management, we were continuing the disposal of the public 
estate, and it wasn't really until 1976 under FLPMA that we 
actually developed organic purposes which gave the BLM a 
continued reason as an organization and as an agency to exist.
    The Forest Service was made with the reservation out of 
public estate, in most cases, especially in the West, and what 
we have here is a fundamental difference in public land law and 
public land policy, and certainly we do wish to work with the 
Subcommittee and with the members of the Subcommittee and would 
respond to requests that you have made as to some suggestions, 
and we will be pleased to provide those for you in the coming 
weeks if you would like.
    Mr. Hansen. I am sure we would appreciate that. If you 
could give us some suggestions on how to break this logjam. 
Frankly, I don't know of anything more frustrating than trading 
land, selling land, swapping land. It is the most frustrating 
thing we go through around here. So, as you know, we have had a 
number of hearings on how do we trade land. And, frankly--don't 
take this disrespectfully; I know no one in this room has much 
to do with it, and it rests here with Congress--but it is the 
biggest fudge factory in the world.
    Forty years ago, I was a city councilman in Farmington, 
Utah, and we had a piece of Forest Service right in the middle 
of our town, and we grew around it. We were 600 people when I 
was a kid; now it is 16,000 people. And we would say to the 
Forest Service, ``Is there a way--we have got you surrounded, 
is there a way we can get rid of this thing?'' ``Oh, yes, we 
will work on it.'' And it went to Ogden and to Denver and to 
Washington, and nothing ever happened.
    I went to the State legislature and tried to do it. I 
became Speaker of the House and tried to do it. I was back here 
for years, and finally, we put it in an omnibus bill, and I 
think the gentleman from Arizona pointed out occasionally we 
have to go to the Colorados and the Arizonas and the Utahs and 
the Idahos and say, let us put a bill together and we all swap 
land legislatively, because we can't seem to get it done with 
the Park Service, the Forest Service, the Bureau of Reclamation 
as the case may be.
    So, I am venting my frustrations on you, and I appreciate 
you taking that, but if you would like to come up with some 
recommendations, I would like to do it, because, to me, I don't 
know why we are spending our time on something that seems so 
meritorious that we could just get it over with and take care 
of little school district in a short time.
    Please don't take this personally; we do appreciate you 
being here, and we will excuse this panel and turn to the third 
panel, not the second panel. Mr. Hefley, who is one of the 
busiest men in Congress, serving on the Armed Services 
Committee; he is chairman of the Military Construction 
Committee, and one of the leaders on the Ethics Committee, I 
would like to point out----
    [Laughter.]
    [continuing] has to leave, so we will turn to the third 
subcommittee which is Mr. Jack Valenti, president and CEO of 
Motion Pictures Association of America and Mr. Philip H. 
Voorhees, Director of National Programs, National Parks and 
Conservation Association, and we appreciate both of you 
gentlemen being with us.
    Gentlemen, it is a pleasure to have you before us. You know 
the rules; it is just a red light. We give you five minutes. If 
you just feel in your heart of hearts you have got to speak a 
little longer than that, well, we are not really pushed for 
time; we can give you a few more minutes.
    Mr. Valenti, it is an honor to have you with us today, sir, 
and we will turn to you.

 STATEMENT OF JACK VALENTI, PRESIDENT AND CEO, MOTION PICTURE 
                  ASSOCIATION OF AMERICA, INC.

    Mr. Valenti. Thank you, Mr. Chairman, and members of this 
Committee. When Abraham Lincoln made his first speech, he ran 
for Congress, he said to his constituents ``Politics are short 
and sweet like the old woman's dance.'' So, I will try to be 
Lincolness today, short and sweet.
    First, I want to say that the movie industry supports H.R. 
154, and I want to especially applaud Mr. Hefley and all of his 
colleagues for the design work they did on this legislation. I 
think it is first class. The movie industry is quite willing 
and ready to pay reasonable fees for filming, and I think the 
architecture of the way these fees will be developed takes a 
common sense approach, and that is the number of people in the 
production crew and the number of days of the shoot. That is 
really the only sensible way that you can gauge how to make 
these fees work.
    So, I think the bill is a model of simplicity and clarity 
but most of all it has a clean set of rules which apply to all 
public lands, so that any movie company instantly knows if it 
intends to shoot on that land for, say, 10 days and they bring 
in 12 people, the know instantly what their costs will be, and 
that takes all the burden off the taxpayer, and I vote for 
that.
    I have a couple of suggestions which I offer you that I 
hope you will consider and in your wisdom decide whether or not 
they make any sense. On page 2 of the bill, lines 4 and 5, it 
says something about the Secretary shall determine if the use 
is appropriate. Now, that language has the smell to me of 
script approval. Script approval before the shoot begins, and 
it seems to me that we ought not involve the Secretary in First 
Amendment issues. That is boggy ground, and it ought terrain 
that we should avoid else judicial antagonisms arise.
    My second suggestion has to do page 3, and I think it is 
line 7 which talks about surface disturbances being a part of 
the fee. Well, as members of this Subcommittee know, any 
renovation of surface disturbances is part of what we call cost 
recovery which the movie companies have been paying gladly in 
years past. Mr. Chairman, almost without exception, when a 
production company finishes its shoot on public lands, it 
leaves the landscape in far better shape than when they began 
the shoot, and I have got example after example after example.
    Finally, I want to say that you should know that the 
American movie dominates all the theaters, television screens, 
video stores, and more than 150 countries on this wrapped and 
weary planet, and, indeed, the film industry returns to this 
country annually more than $4 billion in surplus balance of 
trade which is a phrase that is seldom heard in the corridors 
of this Congress when we are today bleeding from trade 
deficits.
    And, moreover, and my final point is that every time 
billions of people--and that is what we are talking about--see 
a American films that have been filmed on U.S. public lands, it 
is the most enticing kind of tourism ad that you can imagine, 
and we are enticing millions of people to come here as kind of 
global free advertising to the American treasury. I know that 
possibly you may be enchanted with what I am saying up here, 
but I think I will stop now, because that is the essence of 
what I wanted to say.
    [The prepared statement of Mr. Valenti may be found at end 
of hearing.]
    Mr. Hansen. Well, thank you very much, Mr. Valenti.
    Mr. Voorhees, it is always a pleasure to have you before 
the Committee. We will turn to you now, sir.

STATEMENT OF PHILIP H. VOORHEES, DIRECTOR OF NATIONAL PROGRAMS, 
          NATIONAL PARKS AND CONSERVATION ASSOCIATION

    Mr. Voorhees. Mr. Chairman, I appreciate your scheduling 
this as one of the first things up in this Committee this year. 
Mr. Hefley, I very much appreciate your leadership on the 
issue. We are totally on board with your bill, with your 
approach, and I agree fully with virtually everything that has 
been said about the bill in past witnesses as well as Mr. 
Valenti.
    Of course, there is a long and storied history of filming 
involvement in public lands dating well before the 1948 
prohibition of return of fees to the Park Service and Fish and 
Wildlife Service which comes about by unknown reasons, I think, 
for all of us. Nonetheless, it is time to correct the problem, 
and I am pleased to say that last year in early April, NPCA put 
together a forum to discuss the issue with representatives of 
NPCA as well as virtually all of the other industry sectors to 
sit down for a day-long discussion with congressional staff. 
Virtually everybody who has been involved has an interest in 
the issue to really work out what are the finer points of what 
is needed for legislation. I am very pleased to say that there 
was full cooperation with all the industry sectors, and there 
was a lot of very constructive and useful information 
interchange, both among the industry representatives as well as 
those of us in conservation, the members of congressional 
staff, and all of the land management agencies. With that, we 
came out with a variety of points that are listed in the 
written testimony, and I don't think I need to go through what 
are really ensconced in one way or another in Mr. Hefley's 
legislation, and I very much appreciate that.
    I think if there is only point that I would add to the 
structure of the bill, something which is substantially silent, 
I think, in the legislation as it is written now, and that is 
including as a factor in how you calculate the fee. It is the 
size of the physical footprint. Surely, there is a strong 
metric that you can use in calculating what an appropriate fee 
would be in terms of the number of folks involved in the 
filming, but I imagine there are probably occasions in which 
you have a larger expansive land needed for the shoot but not 
all that many people involved, and if that is the case, I think 
that ought to be a reasonable consideration when you are 
talking about developing a structure for a fee schedule.
    That really is the only point that I would like to make, 
but I will say that in my review of the bill and my involvement 
with the land management agencies and with staff in trying to 
move through what are the points that need to be covered in any 
legislation as it moves forward, the concern about the 
Secretary determining an appropriateness--the concern you 
raised earlier, Mr. Valenti--doesn't strike me that that is the 
intent at all. I think the intent probably--and I don't mean to 
step in front of you, Mr. Hefley--is that the Secretary have 
the ability to determine whether certain kinds of, say, 
pyrotechnic are acceptable or not on certain kinds of public 
lands in certain situations. It doesn't strike me as being 
overstepping the bounds, but I am sure there is no flavor here 
of censorship. I really doubt there is that intent, and from 
our perspective that can be worked out to make it more in line 
with your concerns. I certainly would want to be on board with 
that.
    With that, really, frankly, Mr. Chairman, Mr. Hefley, and 
other members of the Committee, I conclude my testimony. I want 
to express my appreciation for your bringing up this 
legislation so early. We were fully on board last year. This is 
yet another example of the direction I think we need to go in 
in terms of having commercial users of public lands pay their 
fair share especially in light of increasing fees being asked 
of the general public for visitation and use. So, I think it is 
fully in line with the direction in which we want to go. On 
concessions reform, Mr. Chairman, you are a leader on that 
issue, and I appreciate that, because it has been a long time 
in coming, and finally it is done. This is another thing that 
should line up behind up, and, again, I want to express my 
appreciation for everybody in the industry who has been 
involved in agreeing that this can and should be done and can 
be done easily with the agreement of all parties in a way that 
is totally fair to all concerned. Thank you.
    [The prepared statement of Mr. Voorhees may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mr. Voorhees.
    The gentleman from Puerto Rico, questions for our 
witnesses?
    Mr. Romero-Barcelo. No questions. I just wanted to take the 
opportunity to say hello my good friend, Jack Valenti, and it 
has been a quite a while. I haven't seen you, and it is nice to 
see you again, Mr. Valenti, and I appreciate your testimony, 
and I don't think there is any controversy about this bill at 
all, so I appreciate also your comments and your suggestions. 
Thank you very much.
    Mr. Valenti. Thank you.
    Mr. Hansen. Thank you. The gentleman from Colorado, Mr. 
Hefley.
    Mr. Hefley. Yes, I want to thank both of you gentlemen, not 
only for your testimony but for your help. Jack, you and your 
people have been just super as we work through this process. I 
wish all the bills went like this, and, likewise, with the Park 
Department. I think both of you have made some interesting 
suggestions here that we will take note of and see if we can 
clarify that in some way. There certainly was no intent to give 
the Interior Department script approval. That wasn't the idea 
as our friend from the Parks Service said, and we will see if 
we can clarify that.
    Also, when we get this bill out of the House--and we hope 
to do it as soon as possible--we would appreciate your help as 
we get to the Senate. I don't think there is controversy over 
there, it is just a matter of getting them to move, and if you 
will help us with that, we will work hard at it and you will 
too, and maybe we can have this thing out and solved fairly 
early in the year, and we hope so. I thank both of you for all 
your work on this.
    Mr. Hansen. I appreciate the gentleman's comments. I hope 
you take those to heart. You have got to realize in 1981 when I 
came here as a freshman Tip O'Neil said, ``The House does all 
the work; the Senate gets all the attention,'' and this 
Committee sent 30-something bills, close to 40 bills, over to 
the Senate last time, and they didn't do zilch with most of 
them. We moved most of them in the last minutes of the last 
days of unanimous consent, and, frankly, there is nothing I 
find more frustrating than to send a good piece of legislation 
over and have those guys sit on it forever. But, of course, 
they are running for President, and we understand how important 
that is.
    [Laughter.]
    The gentleman from Arizona.
    Mr. Hayworth. I thank the Subcommittee Chairman, and just 
to my friends who testified today, thank you, especially my 
good friend, Jack Valenti, sir, we know you have a career that 
supplements what transpires on the silver screen, but your 
performance today was worthy of five stars, and we thank you 
for it.
    Mr. Hansen. We thank you for being here. Mr. Valenti, in 
1981, you took our freshman class to see a show on you called 
``Eye of the Needle'' and I remember that----
    Mr. Valenti. You have got a good memory, Mr. Chairman.
    Mr. Hansen. We appreciate that and remember that very well, 
and as Mr. Hefley points out, we will move this legislation. I 
don't think there is any controversy with this one except 
getting it out of the Senate. I would hope you just give it all 
the shot you can, and thank you so very much, and we will 
excuse this panel.
    Mr. Valenti. Thank you very much.
    Mr. Voorhees. Thank you.
    Mr. Hansen. Our final panel will be Mr. David Silva, H.R. 
150 he will be talking to. Mr. Silva is the principal of Alpine 
Elementary School from Apache County, Arizona; Mr. Arthur N. 
Lee, supervisor of District 3, Apache County, Arizona, and 
Clarence Bigelow, county manager, Apache County, Arizona. We 
appreciate you gentlemen being with us; that is very kind of 
you.
    As you have seen, the controversial issue today is you 
folks. So, can you handle your testimony in five minutes? You 
know the rules; you have heard what others have said. If you 
have to go over, by all means go ahead.
    Mr. Silva, we will turn to you, sir.

STATEMENT OF DAVID SILVA, PRINCIPAL, ALPINE ELEMENTARY SCHOOL, 
                     APACHE COUNTY, ARIZONA

    Mr. Silva. Thank you, Mr. Chairman, members of the 
Committee. First, let me express a word of appreciation to 
Congressman J.D. Hayworth. Through his efforts and the Congress 
of the 104th, 1996, Alpine was the proud recipient of Federal 
land, and the community of Alpine, the elementary school 
governing board, and the students of Alpine expressed their 
appreciation to members who currently serve, who perhaps served 
on the previous Congress that enabled Alpine to acquire the 
Federal land.
    As a principal of the Alpine Elementary School, let me just 
profile quickly the Alpine School District. Alpine Elementary 
School is a small school district in northeastern Arizona, as 
Congressman Hayworth has pointed out. It is completely 
surrounded by Federal land, forest land. The principal economy 
of the Alpine community has been the forest industry and cattle 
ranching. With the demise of the forest, the timber sales 
currently, the minimizing of grazing lands to the cattlemen in 
the area, Alpine is severely, negatively impacted. In addition 
to lack of industry, we are limited in a tax base because of 
the limited private land. Alpine is a community of 
approximately 5 miles square, give or take, and so the economy 
is severely depressed. It was refreshing to hear earlier that 
it appeared on both sides of the aisle that there is a 
sensitivity to the plight of rural schools in America.
    This bill, H.R. 150, as I understand it, seems like a 
reasonable solution to other districts facing similar problems 
as the Alpine school. I say this because having experienced the 
process in previous years, to get an answer to the time frame 
from the initial inception or introduction of the bill to the 
time that it was actually recorded in the county recorders 
office was about 18 months, and there were numerous stumbling 
blocks along the way the school district had to cover, namely 
covering the cost of the appraisal; namely, covering the cost 
of the survey; namely, covering the cost of the environmental 
impact and hazardous waste. So, there were numerous costs that 
were related to the process.
    To give you an idea of the 18 month process and the 
finality of the recording of the bill in October of 1997, there 
is also the development of infrastructure with water, 
sanitation, the utilities, electricity, power, and so the 
process is much lengthier than we would actually imagine going 
into it.
    I see, personally, having reviewed the language of H.R. 
150, that it would provide for benefits without giving order of 
priority but, namely, the youth would be the direct 
beneficiaries of this legislation. Secondarily, there would be 
uniformity. It appears that there would be uniformity in 
processing of BLM and Forest lands. There would be equity to 
schools, and in the equity all students, again, would be the 
direct beneficiaries.
    I would be happy to respond to questions as they arise. 
Congressman Hayworth understands the community of Alpine very 
well. I am sure that he has visited and communicated with each 
of you individually, and, again, we wish to express our thanks 
to you, Congressman Hayworth, for your efforts in the past.
    At this point, I will conclude my remarks, and I will 
answer questions directly as they may arise. Thank you again 
for the opportunity to appear before you.
    [The prepared statement of Mr. Silva may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Mr. Silva.
    Mr. Bigelow.

 STATEMENT OF CLARENCE BIGELOW, COUNTY MANAGER, APACHE COUNTY, 
                            ARIZONA

    Mr. Bigelow. Thank you, Mr. Chairman, members of the 
Committee. Apache County is very familiar with camels getting 
their nose under the tent. For example, we had a thriving 
timber industry and were promised by the Forest Service it 
would continue. We had a thriving cattle industry and were 
promised that would continue if we would concede and allow some 
dissipation of the forest industry and cattle industry. We now 
have no timber industry. The cattle industry is virtually 
having its last gasp.
    We believe that this bill, H.R. 150, is very essential to 
our county and other counties in our State and adjoining 
States. For example, had Alpine had to purchase that 30 acres, 
the land in the Alpine area is going for roughly around $24,000 
an acre. You can imagine what that would have cost the Alpine 
school district had they tried to purchase that land from the 
Forest Service. No way could they have done it when they have a 
maintenance and operating budget of approximately $340,000. The 
land would have cost them several times more than their annual 
operating budget.
    Vernon, in our county, is in a similar situation. The 
school district there is virtually surrounded by forest land. 
The school district in Gila County up in the timber area has 
the same problem. The Navajo County School District in the 
Pinetop Lakeside area has the same problem. They are on permit 
right now in Navajo County. Permits are like the old proverbial 
statement, ``The Lord giveth and the Lord taketh away.'' Well, 
the Forest Service does the same thing. We have that classic 
example in the permit of the cattlemen having no longer permits 
or permits cut astronomically below value.
    A permit is nothing but a hope that you can keep the school 
district on that land. Greenlee County has two school districts 
on permit in the Eagle Creek area and in the Blue River area 
which is now being impacted very heavily by the environmental 
concerns. How long will those permits lasts? We don't know, but 
we do know that permits disappear when the pressure is on. The 
land exchange creates a problem; it doesn't really work in our 
county. All of the land exchanges that have occurred with the 
Forest Service eliminate private land in the forest area and 
then the exchange is in the premier land near Tucson, Phoenix, 
and the metropolitan areas, so we then continue to lose tax 
base. Our country right now has approximately 14 percent 
private land in the county, and it is decreasing every time 
land exchange occurs. So, our only hope for education in these 
mountain communities clear across from Flagstaff into New 
Mexico is this bill that J.D. Hayworth has presented to give 
security to our education and to our young people.
    That, basically, is my added comments to my written 
statement which you have, and we implore you to seriously, 
carry this bill and pass it, and, hopefully, the whole Congress 
will pass it, because it is vital to your rural counties in the 
western States. Thank you.
    [The prepared statement of Mr. Bigelow may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mr. Bigelow.
    Mr. Lee.

  STATEMENT OF ARTHUR N. LEE, SUPERVISOR, DISTRICT 3, APACHE 
                        COUNTY, ARIZONA

    Mr. Lee. Chairman Hansen and members of the Committee, 
thank you for this opportunity just to testify. For the record, 
my name is Arthur N. Lee, supervisor from Apache County. On 
behalf of Apache County and the Coalition of Arizona and New 
Mexico Counties for Stable Economic Growth, I come before you 
today in support of H.R. 150.
    For several years now, our county's mountain community 
schools have suffered economic hardship. Dropping enrollments 
are common as logging, ranching, and mining families are forced 
by regula-

tions and court decisions to move out of the towns they grew up 
in. In Apache County and Greenlee County alone, at least five 
school districts--Alpine, Blue, Eagle Creek, Vernon, and Round 
Valley--face these problems. The result of losing these 
families is a drop in bonding capacity, school property tax 
revenues, and in-school district revenues. With loss of funds 
and bonding ability, our mountain schools are in many cases 
unable to acquire property critical to the service of their 
students. This happened in the Alpine School District which is 
in my county supervisors district. Fortunately, with assistance 
from my good friend J.D. Hayworth, we were able to get a grant 
of land for them.
    In Round Valley area alone, we just lost the Eagle Sawmill, 
the largest remaining sawmill in the Southwest. Due to the 
forced elimination of timber harvesting, they were forced to 
permanently close the mill and lay off 70 remaining workers. 
When the mill ran at full capacity in 1989, it directly and 
indirectly employed almost 700 people, including mill workers, 
loggers, timber haulers, and so forth.
    While hope remains that good sense will return the 
harvesting of timber in time to save our forests from 
catastrophic fires and save our mill, it is equally important 
to save our cattle industry.
    As a result of the loss of timber and the cattle industry, 
more families will move out of our school district. It will 
force the schools to lay off teachers, cut critical programs, 
and cripple the quality of our children's education.
    Mr. Chairman, the problems I have described to you are 
happening to schools in many rural Arizona and New Mexico 
counties as a result of lawsuits and environmental regulations 
that continue to shut down our economic base industries, 
destroy our way of life, and ruin the education of our 
children. For example, the Blue and Eagle Creek schools in 
Greenlee County are located in public forest lands. The loss of 
ranching and timber families have forced these schools to 
periodically close, and they live on constant fear that their 
schools land leases will not be renewed.
    In Navajo County, Arizona, costs of regulations for schools 
on public lands drives the cost of education up at a time of 
increasing uncertainty. In Greenlee County, Arizona, only 3.8 
percent of the total land base is private ownership. with some 
school districts located in areas with less than 1 percent 
private property. The ability of these schools to receive a 
grant of land would give them more security and improve their 
financial situation.
    The passage of this bill should also help many school 
districts lower their expenses by eliminating those schools' 
need to lease property, lower the cost of building expenses, 
and provide quality outdoor educational opportunities for our 
children. In addition, local governments can benefit from 
greater social stability and expansion on essential community 
services.
    Mr. Chairman, for the sake of our children, our families, 
and our schools, we urge that you pass H.R. 150. Thank you very 
much.
    [The prepared statement of Mr. Lee may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Mr. Lee. The gentleman from Puerto 
Rico.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman. I only wanted 
to thank the witness for their testimony and for giving us the 
living examples of the needs that they have in their 
communities for this land and the lack of land available in 
western areas and western States. I can't think of anybody--and 
the other committee I belong to is the Education and Workforce 
Committee--I can't think of a single member of the House 
Education and Workforce Committee who would not agree with the 
purposes of this legislation, and I don't think of any Members 
of Congress that would not agree with the purposes of this 
legislation. There are still things that we are going to have 
to iron out, but I don't see any problem. I am sure that they 
will be ironed out, and I think that you can rest assured that 
Mr. Hayworth's efforts will be available eventually to all of 
the communities in the West. That is my feeling. Thank you very 
much.
    Mr. Hansen. I appreciate the gentleman's comments and agree 
with them. The gentleman from Arizona.
    Mr. Hayworth. I thank the Subcommittee chairman, and I 
thank my colleague from Puerto Rico for his support of this and 
I especially thank my constituents who are here, Mr. Silva in 
his role so important on the front lines of education offering 
eloquent testimony of the challenges involved in trying to 
envision a project; trying to literally get something done; 
clearing all the hurdles created by the challenges--some would 
be tempted to say almost the persecution of rural communities 
and the livelihoods that have been traditional and very 
practical and I believe help strive to strike a balance in 
these rural communities, but also reminding us of our most 
precious resource, our children.
    To my good friend, Mr. Bigelow, who very eloquently pointed 
out how familiar rural westerners are with the phrase used by 
Mr. Brouha of the Forest Service about the camel's nose under 
the tent. This seemingly relentless march to subjugate those 
who live in western States involved in legitimate entities to 
somehow suspend those economic endeavors; to create hardship 
for those who administer the laws within the counties and I 
felt especially eloquent his notion that the regulatory 
agencies are now put in a position where they giveth and they 
taketh away. And let the record indicate, Mr. Chairman, that 
here we sit in a Subcommittee hearing, and perhaps those who 
joined us from the administration were not required to stay, 
but the Subcommittee Chair pointed out to us the importance of 
public policy, and, yes, as constitutional officers, we are 
accountable, but how far afield in the culture of Washington it 
is for those who are charged with the execution of public 
duties, many of whom are noble and work hard, who come under 
the heading of bureaucrats, how unfortunate it is that our 
friend from the Forest Service who was here could not extend 
the dignity or make the time in his schedule to stay here and 
hear the eloquent testimony of people on the front lines such 
as my colleagues.
    Mr. Lee, you pointed out not only within your supervisory 
district, but throughout the areas of my congressional district 
and throughout the rural West the challenges faced. I think it 
is unfortunate that even as our friend from the Forest Service 
very politely took the suggestion of the Subcommittee Chair, 
for whatever purposes and pressures of scheduling, no one could 
stay and listen to the testimony of my constituents. I know it 
has not fallen on deaf ears within this Subcommittee chamber, 
and I look forward to working with people on what is truly a 
bipartisan aim to improve education for children living in the 
rural West.
    Mr. Hansen. Thank you. I appreciate the gentleman's 
comments. The gentleman has brought an issue up that has always 
been kind of a sticky point in this Committee, and seeing this 
is our first hearing of the 106th, I didn't think of it, but in 
the past, sometimes we put these folks on first and let the 
Forest Service, BLM, and Park Service sit there, and make sure 
they come on last so they can respond. In fact, if I had 
thought about that, I probably would have done that. It didn't 
cross my mind, but I have asked Mr. Griffith here, my staff, to 
make sure that the Forest Service gets your testimony which 
will going out today to them.
    And let me join with my friend from Puerto Rico and other 
members who have commented on this, I have you have an 
extremely meritorious issue before you here. As far as this 
Subcommittee is concerned, we will move this legislation. I 
think it will probably also move through the full Committee 
without any trouble. I would seriously doubt if there would be 
many problems on the floor. If I was giving anybody counsel 
here today, I would say the problem happens to be over in the 
House of Lords, and if you make sure you go over there and 
petition your Arizona folks and your western senator friends to 
move it, you will probably get something done. They are 
notorious for putting things off.
    I think the hallmark of the Senate is ``When in doubt, 
procrastinate,'' and I say that somewhat respectfully, but not 
much. But, anyway, if I was you--I don't think you are going to 
have any problem on this side, but over there that thing has a 
way of just sitting. You may see that I am the true prophet 
when this happens.
    Anyway, with that said, I thank all three witnesses for 
their excellent testimony, and I think this concludes the 
matter. This Subcommittee stands adjourned.
    [Whereupon, at 11:29 a.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
   Statement of Tom Fry, (Acting) Director, Bureau of Land Management

    Mr. Chairman and Members of the Subcommittee, I appreciate 
the opportunity to testify on H.R. 15, the Otay Mountain 
Wilderness Act of 1999. I want to commend the bill's sponsor, 
Congressman Brian Bilbray for introducing this legislation 
which recognizes the unique nature of the area by protecting 
its many outstanding and precious natural resources for 
generations to come.
    The Bureau of Land Management (BLM) strongly supports H.R. 
15. We also recognize and appreciate the Subcommittee's work 
last Congress which amended H.R. 3950, the Otay Mountain 
Wilderness bill, also introduced by Mr. Bilbray. Our only 
objection to H.R. 3950 was the Section 6(b) language on Border 
Enforcement, Drug Interdiction, and Wildland Fire Protection. 
The amended Section 6(b) language, which appears in H.R. 15, 
was requested by the Administration and is in keeping with the 
mandate and intent of the 1964 Wilderness Act.
    I want to comment briefly on Secretary Babbitt's recent 
tour of Otay Mountain. While there, the Secretary met with many 
individuals and local officials committed to preserving the 
special resources of this area. He was very impressed, 
encouraged, persuaded and enlightened by the diverse group he 
traveled with including Representative Bob Filner, San Diego 
County representatives, the staffs to Senators Feinstein and 
Boxer, staff to Congressman Brian Bilbray, the San Diego 
Association of Governments, the California Biodiversity 
Council, the Sierra Club, the Endangered Habitat League, The 
Wilderness Society, the U.S. Border Patrol and BLM officials.
    H.R. 15 would designate 18,500 acres of the Otay Mountain 
area in eastern San Diego County, adjacent to the U.S.-Mexico 
International Border, as BLM wilderness. Otay Mountain is 
located in an extremely unique and diverse area of the country. 
The area is important to San Diego's ongoing habitat 
conservation initiatives which the Department strongly 
supports. BLM currently manages Otay Mountain to preserve and 
maintain its wilderness character and we strongly support its 
continued protection and the wilderness designation envisioned 
in H.R. 15.
    I would like to provide a brief discussion of certain 
aspects of the area's history and resources to help new 
Subcommittee Members better understand the vast array of public 
land management issues in this scenic and ecologically diverse 
area. The Otay Mountain area has long been recognized by the 
public as a unique ecosystem. As early as 1962, the Secretary 
of the Interior created the Otay Mountain National Cooperative 
Land and Wildlife Management Area. Management direction for the 
area has focused on conservation of the area's flora, fauna, 
ecologic, geologic, cultural and scenic values as well as the 
protection of its wilderness values. In the 1980's, BLM 
established the Western and Southern Otay Mountain WSAs and, 
with strong public support (including a 1982 resolution from 
the San Diego Board of Supervisors), ultimately recommended a 
large portion of the WSAs as wilderness.
    In addition to its natural attributes, the area has 
opportunities for solitude, open space and primitive 
recreation, and possesses nationally significant biological 
values. These include stands of rare Tecate Cypress and 15-20 
other sensitive vegetative species. The proposed wilderness 
also contains an Area of Critical Environmental Concern which 
was established by BLM with strong public support. In addition, 
the City of San Diego has identified the region as a ``core 
reserve'' in open-space planning, and the California Department 
of Fish and Game and local universities have had a long 
interest in studying and monitoring the area's flora and fauna. 
Wilderness designation would secure a unique ecosystem in the 
National Wilderness Preservation System.
    Unfortunately, the area has experienced extensive resource 
damage in the last few years as a result of undocumented 
immigrants attempting to cross through the region. In addition, 
an October 1996 wildfire inflicted considerable short-term 
damage. However, with close coordination and onsite work among 
the BLM, California Department of Forestry and Fire Protection, 
the Border Patrol, the City, County, and other interests, a 
dramatic reduction in illegal traffic has occurred and the area 
appears to be restoring itself.
    Finally, as a result of a recent court decision by the 
United States District Court for the District of Columbia which 
concerned maps that were not on file at the time legislation 
was enacted, we believe that it is essential for the Committee 
to work with the Department to develop a dated and filed map 
prior to the enactment of this legislation.
    This concludes my statement and I would be glad to answer 
any questions you may have.
                                ------                                


   Statement of Paul Brouha, Associate Deputy Chief, Forest Service, 
                United States Department of Agriculture

    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:
    Thank you for the opportunity to be here today to present 
the Administration's views concerning H.R. 150, amendments to 
the Recreation and Public Purposes Act to dispose of National 
Forest lands to education agencies. The Administration 
commented on H.R. 2223 regarding this subject during a hearing 
before this Subcommittee last year. I am accompanied today by 
James B. Snow, Deputy Assistant General Counsel, Department of 
Agriculture.
    While the Administration supports the objective of making 
Federal lands available in certain circumstances for public 
purposes, the Administation strongly opposes this bill.
    First, the bill is unnecessary because current statutory 
authority exists to make land available for educational 
purposes. Second, the bill would permit the disposal of 
National Forest lands for less than fair market value. Third, 
the deadline requirement to make the conveyance decision within 
60 days is entirely inadequate.

Concerns about H.R. 150

    The Administration appreciates the efforts the Subcommittee 
has made to address the concern raised last year regarding H.R. 
2223. However, H.R. 150 continues to raise serious problems for 
the Administration.
    First, to include the disposal of National Forest lands for 
public purposes under Recreation and Public Purposes Act of 
1926 (R&PPA) is unnecessary because the Secretary of 
Agriculture has existing authorities to accommodate public uses 
through authorities to permit, lease, exchange, and dispose of 
National Forest lands. For example, under the Townsite Act, the 
Secretary of Agriculture may convey, for fair market value, up 
to 640 acres of land to established communities located 
adjacent to National Forests in Alaska and in the contiguous 
western states. Within certain limits, the Sisk Act of 1967 
authorizes the Secretary of Agriculture to exchange lands with 
states, counties, or municipal governments or public school 
districts for lands or lands and money. Moreover, the Secretary 
of Agriculture can exchange National Forest lands with State 
and local governments.
    Second, the Administration objects to H.R. 150 because it 
would permit the disposal of National Forest lands for less 
than fair market value. The taxpayers of the United States 
should receive fair market value for the sale exchange, or use 
of their National Forest lands. Unlike the R&PPA, other land 
exchange laws require the Secretary of Agriculture to obtain 
fair market value for exchanges or sales of National Forest 
lands. Indeed, the Federal policy backed by bipartisan 
coalition in the executive and legislative branches in recent 
decades has moved toward maximizing return to the public for 
the value of lands conveyed out of Federal ownership. The 
Administration objects to legislation that would reverse that 
policy by opening the door to less than fair market value 
consideration for the disposition of National Forest lands.
    Third, the Administration objects to the requirement that, 
within 60 days, a decision on the R&PPA conveyance must be 
made. Decisions about the appropriate uses of National Forest 
lands and resources are accomplished through the forest 
planning process under the National Forest Management Act 
(NFMA) and the National Environmental Policy Act (NEPA). Under 
NFMA and NEPA, the Forest Service analyzes important 
environmental issues and the public is extensively involved. 
During this process, local Forest Service officials work 
closely with state and local governments to identify their 
concerns, needs for land, and lands appropriate for land 
ownership adjustments.
    These processes take time, and since every land adjustment 
is unique, it would be difficult to predetermine an appropriate 
amount of time necessary to complete the environmental 
analysis. In fact, such a limit would only serve to create 
expectations that the agency could not meet and undermine the 
credibility of its public involvement process and environmental 
analysis. The agency strongly believes that attempts to short 
circuit environmental and public processes will only lead to 
more controversy.

Closing

    Mr. Chairman, while the Administration supports the general 
objective of making Federal lands available for education 
purposes, the Administration strongly opposes H.R. 150. 
However, the Administration remains open to discussions with 
the Subcommittee on other ideas for this bill.
    This concludes my statement. I would be happy to answer any 
questions you and Members of the Subcommittee might have.
                                ------                                


  Statement of Stephen Saunders, Deputy Assistant Secretary for Fish, 
                            Wildlife & Parks

    Thank you for the opportunity to present the Department of 
the Interior's views on H.R. 154, a bill to provide for the 
collection of fees for the making of motion pictures, 
television productions, and soundtracks on all Department of 
Interior lands and facilities, including those in the National 
Park System, National Wildlife Refuge System units, Bureau of 
Land Management managed lands, and facilities managed by the 
Bureau of Reclamation. The Administration supports this bill, 
which is in accord with the President's FY 2000 Budget.
    H.R. 154 would allow the Secretary of the Interior to 
charge a fee sufficient to provide a fair return to the 
government for filming on lands administered by the Department 
of the Interior. The bill is identical to the version of H.R. 
2993 that was reported out of the House Committee on Resources 
in the 105th Congress and passed the House. H.R. 154 would also 
repeal the present regulations governing the issuance of film 
permits in parks, and refuges. Under existing regulation 43 
CFR. 5.1 (b), the National Park Service (NPS), and the U.S. 
Fish and Wildlife Service (FWS) are prohibited from charging 
fees for the making of motion pictures, television productions, 
or sound tracks in NPS or FWS units. The regulation does not 
prohibit NPS and FWS from recovering the costs associated with 
administering film permits.
    Units of the park system, the wildlife refuge system, and 
BLM managed lands have played significant roles in many 
different types of motion picture, television productions, and 
commercial advertisements. Over the past three fiscal years, 
more than 1,000 permits were issued for filming on BLM managed 
lands. NPS has issued approximately 4,500 filming permits 
during this time. Many of the permits issued by NPS, BLM, and 
FWS are for small productions, some of which are commercial in 
nature, others of which are educational. However, all three 
agencies issue a significant number of permits to makers of 
major television and motion picture productions.
    Although parks and refuges were created to conserve and 
protect natural resources and wildlife, they have played 
important roles in many high-grossing films. The 400-year old 
fortification known as ``El Morro'' in San Juan National 
Historic Site was used in the movie ``Amistad'' to depict a 
slave-trading market; the white sands of White Sands National 
Monument were used in the movie ``Star Wars'' to depict an 
otherworldly landscape; and the Linville Falls Trail in Blue 
Ridge Parkway was used for the ambush scene in ``Last of the 
Mohicans.'' These are but a few of the hundreds of memorable 
films that have been filmed in national parks over the years. 
The list includes ``Dances with Wolves,'' filmed in part in 
Badlands National Park, ``The Deer Hunter,'' made in part in 
Lake Chelan National Recreation Area, and ``In the Line of 
Fire,'' filmed at several NPS sites throughout the National 
Capital Region. FWS units have also played host to memorable 
motion pictures. The exciting chase scene at the opening of 
``The Raiders of the Lost Ark,'' with Harrison Ford was filmed 
in Hanalei and Huleia National Wildlife Refuges. The movie 
``Uncommon Valor,'' a story about a Vietnam War veteran, was 
filmed in part at the same refuges in Hawaii. Recently, filming 
of the movie ``Random Hearts'' with Harrison Ford occurred in 
part at Patuxent Research Refuge in Maryland.
    It is often the unique nature of public lands that attracts 
filmmakers. In some cases, public lands may be the only option 
for a filmmaker whose story is inextricably tied to something 
that may only exist on public lands. We believe the public has 
the right to be compensated for the commercial use of this 
uniqueness.
    The Bureau of Land Management (BLM) filming policy is 
governed by the 43 CFR 2920 regulations, which allows the 
agency to recover its costs for processing and monitoring 
permits and charge fair market value for filming. Cost recovery 
can be substantial on major productions. The BLM allows each of 
its state offices to set their own fee schedules based on 
market values of filming activities on other lands. The 
California office, for instance, will charge up to $600 per day 
per location for the use of its public lands for filming. The 
BLM's fee schedule does not appear to be a deterrent for 
filming on the public lands managed by BLM, as these lands have 
been used as sites for such films as ``The Horse Whisperer,'' 
``The River Wild,'' and ``Maverick.'' The United States Forest 
Service is also statutorily authorized to charge fair market 
value for filming. It allows its regional offices to set fee 
schedules which are similar to BLM's fee schedules. For 
example, the Southern California Regional office of the Forest 
Service charges up to $600 per day per location for filming in 
Forest Service sites in southern California.
    Other land-owning governmental entities charge even higher 
fees than our sister Federal agencies. The Navajo Nation, for 
instance, charges up to $2,000 a day for the use of Monument 
Valley, the site of many memorable films. Similarly, the city 
of Beverly Hills in California charges fees that exceed $2,000 
per day for filming in its city parks.
    Ironically, the NPS and the FWS charged for filming prior 
to November 1948. Prior to 1945, film-permitting policy was 
governed by Secretarial Orders which allowed the NPS to charge 
as much as $500 per day for filming. That is equivalent to more 
than $10,000 in today's dollars. In 1945 a new Secretarial 
Order was put in place that permitted NPS to negotiate even 
higher fees than this for large-scale productions. These fees 
were more than twice the amount that the General Land Office 
(BLM's predecessor agency) was allowed to charge at the time. 
It is unclear why this policy was changed in late 1948, but it 
should be noted that when NPS charged for filming, movies were 
still made in parks. Many films, including 1947's ``Sea of 
Grass,'' starring Spencer Tracy, and filmed in Canyon de Chelly 
National Monument, and 1948's ``Yellow Sky,'' starring Gregory 
Peck, and filmed in Death Valley National Monument, were made 
when NPS charged for filming.
    In late 1948, the precursor to the current 43 CFR 5.1 was 
issued, which prohibited NPS from charging filming fees. 
Another change in this regulation in 1957 prohibited FWS from 
charging fees for filming. We have searched our files but have 
not yet discovered why the regulations on filming fees were 
changed for NPS and FWS.
    NPS and FWS are also concerned that their inability to 
charge fees may be attracting permit applications from 
filmmakers who would seek other lands if fees were charged. The 
mission of NPS and FWS is to protect natural and cultural 
resources and wildlife. These agencies were not set up to 
attract filming business. Yet, by prohibiting these agencies 
from establishing fees the present regulations make these 
public lands more attractive to filmmakers whose films could 
also be made on other governmental or tribal lands. H.R. 154 
would correct this anomaly by repealing 43 C.F.R. 5.1 and 
giving the Secretary of the Interior the authority to charge 
fees that are at least comparable to the fees charged by other 
agencies.
    The authority given to the Secretary would allow the 
Secretary to establish a schedule of rates for fees based on 
such factors as the number of people on site, duration of 
activities, the use of ``special use'' areas including 
wilderness, and any surface disturbances authorized under a 
permit. H.R. 154 would allow the fees collected for filming on 
Interior public lands and facilities to be distributed in the 
same manner as revenue collected under the recreation fee 
demonstration program. Under this program, fees are remitted to 
a special account in the Treasury. Eighty percent of the fees 
in the account go back to the park, refuge unit, or BLM office 
that generated the fees. Twenty percent of these fees are 
available for distribution throughout the NPS, FWS, and BLM 
systems.
    Subsection (b) of H.R. 154 provides that no fee shall be 
charged for any bonafide newsreel or news television film 
gathering, or for still photography that does not include 
product or service advertisements or the use of models, sets or 
props or would not result in damage to resources or a 
significant disruption to normal visitor uses. We support this 
provision.
    The Department is extremely supportive of the goals of H.R. 
154. The public deserves to receive a fair return for the use 
of Department lands and facilities that play an important role 
in motion pictures, television productions, and soundtracks. 
The public will also benefit from a fee distribution system 
that would allow each land management agency to retain the fees 
generated under these permits. We are confident that H.R. 154 
would accomplish this goal without compromising the 
Department's primary mission of protecting the resources under 
its care. Thank you for this opportunity, and I would be happy 
to answer any of your questions.
                                ------                                


Statement of Jack Valenti, President & CEO, Motion Picture Association 
                               of America

    Mr. Chairman, members of the Subcommittee, thank you for 
allowing me to testify on H.R. 154, which deals with the 
filming of motion pictures in the National Parks and public 
lands. I am here today to add MPAA support for the bill.
    The Motion Picture Association of America is an assembly of 
the seven largest producers and distributors of movies, 
television programs, and home videos in the world: The Walt 
Disney Company, Sony Pictures Entertainment, Metro Goldwyn-
Mayer, Viacom, Twentieth Century Fox Films, Universal Studios 
and Warner Bros. In an era when the specter of ``deficit'' 
balance of trade haunts the Congress, the U.S. film/TV/home 
video industry is a robust contributor of billions of dollars 
of ``surplus'' balance of trade. It is a confirmed fact that 
the American movie is the most wanted export of the United 
States.
    There's a wonderful world of grand vistas in the public 
lands. Such splendor imprisoned on film attracts audiences, 
which in turn beckon to producers, who are willing to pay 
uniform and reasonable fees for that privilege. Currently, 
whenever one of the major film companies wants to film in the 
National Park, they face different rules and regulations in 
different locations. The standards and requirements which they 
confront are sometimes so burdensome it makes filming in the 
parks quite unenticing. Result? Oftentimes producers seek 
private lands and state parks, as well as locations outside the 
United States. These alternatives grow more alluring when the 
parks make it difficult to film. Establishing a reasonable, 
predictable fee schedule could eliminate one source of 
uncertainty and help forge a positive, cooperative partnership 
between the producers and the parks.
    Our films are received joyously and hospitably on all the 
continents where people of varying cultures and creeds reside. 
Billions of people watch American movies every year. Therefore, 
in cinemas and homes throughout the world scenes of American 
parks are avidly viewed and admired. It's fair to say, then, 
that not only is park filming beneficial to the parks for the 
revenues it could produce, but also for the huge global reach 
of movies which captures the landscapes of the parks and 
enthralls international audiences, as well as the citizens of 
our own land. It's a kind of ``free global advertising''for the 
National Parks.
    The objective of H.R. 154 is to encourage filming in the 
parks in return for reasonable fees, which will provide new 
revenues to the parks without burdening the taxpayers. We 
support that goal. I am here today to declare our enthusiasm 
for the aim of this bill and perhaps offer some suggestions we 
believe will add to the benefits the bill confers on the parks.
    Right now, the National Parks Service cannot charge fees 
for filming. Although the parks can be reimbursed for costs of 
filming (Ranger time, parking, use of campgrounds, et cetera) 
these reimbursements don't provide real financial support to 
the parks. As a result, park administrators can become 
indifferent to filming, or even hostile because their efforts 
to promote movie making in the park don't produce for them any 
direct return. What happens is that film producers do regularly 
make contributions to non-profits associated with the parks, 
but it's all a grab bag of unpredictable and wildly 
inconsistent levels.
    Last Congress, we came to this Committee with suggestions 
for bringing discipline to the fee process, attracting 
producers to the parks, and enlarging benefits to the parks. I 
would like to thank the Committee, and in particular, 
Congressman Joel Hefley for working with all the interested 
parties and coming up with the reasonable approach embodied in 
H.R. 154.
    We support H.R. 154 for several reasons:
    FIRST, because the fee is based fundamentally on the number 
of people in the crew and the number of days of the shoot. Why 
is this the most sensible approach? Size of the crew is the 
best indicator of the complexity of the shoot.
    LETHAL WEAPON IV might have 35 people on the special 
effects crew alone. TITANIC had 45 people in its costuming 
segment. A smaller film group might not have that many people 
in its entire crew. A TV commercial crew might number only 10 
people.
    This approach is simple, clear, and predictable. Every 
producer knows immediately what the costs will be.
    SECOND, the Hefley bill applies the fee schedule uniformly 
to all of Interior's lands, not just the national parks. Out of 
the current rag-tag fee process will come a clean set of rules 
applied across the board.
    THIRD, in H.R. 154, the land where the filming occurs 
retains most of the fees (80 percent) collected. Not only does 
this relieve some taxpayer burden, but also it will surely 
enliven park administrators' interest in being hospitable to 
film producers and that they will reap the rewards that come 
from responsible filming in the parks.
    FOURTH, we appreciate the work this Committee did in the 
last Congress to clarify the meaning of the statutory phrase 
that requires the Secretary of Interior to determine that the 
use of the filming permit is ``"appropriate.'' On page 3, of 
report 105-678 accompanying H.R. 2993, I quote ``The word 
`appropriate' is included to ensure this legislation tracks 
with other fee structures and as a common sense guide for the 
Secretary in issuing permits under this bill. The Congressional 
intent of the word `appropriate' should not be construed by nor 
does it confer rights upon the Secretary for script approval or 
censorship. The word `appropriate' means that permits should 
not be issued at sights where filming activity will result in a 
gross disruption of public use of the site.''
    Last Congress we came to you with suggestions to make this 
legislation workable, and we thank you for listening. In fact, 
we are so pleased that you listened that we have a further 
suggestion . . .
    Streamline the fee structure by limiting the factors for 
deriving the fee to the (1) number of people on site and (2) 
duration of activities under a permit. Surface disturbances are 
actually a ``cost'' and thus would be reimbursed to the local 
parks as such. ``Streamlining'' is a popular word in Congress 
and by limiting the factors, the process would be even simpler 
and more predictable for all.
    We applaud the efforts of Mr. Hefley and of the Committee. 
Film producers want to film in the national parks. They want to 
pay fees which are reasonable, sensible, certain--and 
expeditiously determined. Most of all, they are pleased that 
their films, exhibited in over 150 countries, advertise to the 
world the unduplicatable beauties of our national parks, 
irreplaceable treasures which belong to the American citizenry.
    We look forward to working with you.
                                ------                                


    Statement of Philip H. Voorhees, Director of National Programs, 
              National Parks and Conservation Association

    Mr. Chairman, and members of the Subcommittee, my name is 
Phil Voorhees. I represent the National Parks and Conservation 
Association (NPCA) whose testimony I present today. NPCA is 
America's only private, non-profit citizen organization 
dedicated solely to protecting, preserving, and enhancing the 
National Park System.
    I am delighted to appear before you to testify in support 
of Mr. Hefley's filming fee reform legislation.
    NPCA supports the Subcommittee's intent to charge 
reasonable and fair fees for commercial filming and recording 
activities in areas administered by the National Park Service 
and Fish and Wildlife Service. We appreciate the opportunity to 
present our views on this small, yet important aspect of 
commercial use of our Federal lands. I will focus my remarks on 
the legislation as it relates to the National Park System.

Background

    The relationship between Hollywood and the national parks 
is long and storied. From ``Star Trek'' to ``Star Wars'' to 
``Robinson Crusoe on Mars,'' national parks have provided the 
backdrop for both box office blockbusters and forgettable B 
movies, to say nothing of thousands of filmed commercials. The 
list of movies filmed in the parks runs tens of pages long and 
includes such films as ``Thelma and Louise,'' ``Maverick,'' 
``Forest Gump'' and ``Gettysburg.''
    The films and commercials run the gamut of genre types from 
westerns to science fiction, but one thread remains common 
throughout. Every one of the films, whether it made money or 
not provided almost nothing to the parks in return for the 
privilege of using public lands. As the law now stands, the 
National Park Service is authorized to recoup only the cost of 
monitoring the filming, a negligible application fee and the 
cost of any damage remediation. For example, when Mister Spock 
needed to beam down to the planet Vulcan for the film ``Star 
Trek,'' Hollywood chose the geothermal terraces of Yellowstone. 
In return, we understand the Park Service received the grand 
sum of $300, while the film went on to gross more than $50 
million.
    By comparison, if the same scene were filmed on private 
property, the production company would have had to pay up to 
$8,500 per day as a location fee. This issue boils down to a 
question of fairness. It is simply unreasonable to ask the 
visiting public to pay increased entrance and use fees while at 
the same time fees for commercial uses of the national parks--
from concessions to commercial filming--have remained 
astonishingly low, or even free. When it passed S. 1693 (the 
National Parks Omnibus Management Act of 1998) last year, 
Congress took a significant step toward ensuring that the 
government would receive a fair return from concessioners 
operating in the parks. It is time to take that same step with 
the film industry.
    To the extent that the commercial filming industry has 
openly announced its willingness to correct this imbalance, the 
Committee has a rare opportunity to craft a solution that both 
addresses the problem fairly and reflects the support of both 
the conservation community and the affected industry. Before 
continuing, I want to voice NPCA's appreciation to the many 
facets of the commercial filming industry, for their openness 
and cooperation in finding a solution to this problem.

Opportunities for Legislative Solution

    Rather than addressing the specific language of H.R. 154, I 
will focus on some of the principles that need to be reflected 
in any piece of legislation if it is to address the needs of 
the parks while incorporating the reasonable desires of the 
filming industry.
    On April 8 of last year, NPCA invited representatives of 
the commercial filming industry, the National Park Service, 
Bureau of Land Management, Fish and Wildlife Service, Forest 
Service and congressional staff to a workshop session to 
discuss the dynamics of commercial filming on Federal lands and 
parks in the U.S. We were interested in identifying the 
advantages and problems associated with commercial filming 
activities, identifying the needs and differing approaches of 
the land management agencies in hosting these activities, and 
arriving at a common understanding of facets necessary for 
improvement of the current situation in the eyes of both the 
industry and the land management agencies.
    After a day-long discussion, all parties arrived at an 
understanding that the following characteristics must be 
reflected in any legislation, if that legislation is to improve 
upon the current situation and provide more equitable fees for 
the use of the parks:

        <bullet> The National Park Service should recover all 
        ``direct'' and ``indirect'' costs associated with commercial 
        filming projects within the National Park System.
        <bullet> In addition, the National Park Service should charge a 
        fee for use of Federal property. Such fee should provide a 
        ``fair return'' to the Park Service.
        <bullet> All fees collected (cost recovery and site) should be 
        retained by the Park Service, and should be available for 
        expenditure without further appropriation.
        <bullet> The filming industry needs to have certainty in the 
        permitting and fee determination process.
        <bullet> Nonetheless, the industry recognizes that there will 
        be different standards for filming on the various public lands 
        due to the differing resource protection and use mandates among 
        the land management agencies.
        <bullet> A set fee schedule, based on the impact (footprint) of 
        the filming activity is an appropriate method for determining 
        site fees.
        <bullet> Still photographers who are not using ``models or 
        props'' should neither be required to obtain a permit nor 
        required to pay a separate fee for commercial filming 
        activities.
        <bullet> Legislation should avoid the use of the term ``fair 
        market value.''

Problems with Fair Market Value

    Last year, NPCA testified in support of House legislation that also 
would have allowed the Park Service to charge a fee for filming 
activities in the parks. That legislation proposed using a ``fair 
market value'' approach for determining the fee the Park Service would 
charge those filming in the parks. However, after hosting last year's 
workshop, we became convinced that, while conceptually fair, in 
practical terms, a fair market valuation would be extremely difficult 
to calculate.
    The central issue, as identified and discussed in the workshop, is 
what is the ``market'' that would be used for the purposes of 
comparison? States do not provide an adequate comparison because of the 
perceived side benefits flowing to the state and local communities from 
increased exposure, general commerce (food service, lodging, et cetera) 
associated with commercial filming, and potentially increased tourism 
revenues. Because of these factors, many states provide the access for 
free or at very low rates. Another complicating factor in determining 
fair market value is the difficulty in finding comparable locations. 
There is only one Statue of Liberty, Devils Tower, or Crater Lake in 
the world, and the uniqueness of the geologic and cultural features of 
the national parks are frequently the very reason the industry is 
attracted to that location. There may be no comparable setting on state 
or other lands.
    For these reasons, we would recommend against an approach that 
specifically identifies ``fair market value'' as the yardstick to 
assess commercial filming fees. Although it sounds good and is the 
principle we have supported with respect to park concessioners and 
other private companies making a profit through their use of the parks, 
in this circumstance the practice of assessing fair market value may 
create problems too difficult to overcome.

Additional Concerns

    As currently written, H.R. 154 does not adequately reflect the 
primary need and responsibility of the NPS to protect the resources, 
first and foremost. If NPS specific commercial filming requests are 
likely to place park resources at risk, they must deny the permit 
outright, or insist on changes to provide the protection needed. Adding 
such an explicit provision does not imply that the commercial filming 
industry has an extended record of running roughshod over park 
resources. Rather it recognizes that problems have arisen in the past. 
Above all, park resources must be protected. Such language provides a 
necessary--if seldom invoked--safeguard against contingencies.
    Another concern is for the level and distribution of the fees that 
result from this legislation. As with all use fees, whether derived 
from visitor entrance and use of the resources or commercial uses of 
the parks, it is vitally important that the Congress be mindful of the 
risk of creating perverse incentives for filming and other park 
activities. No matter the origin, fee streams should not be allowed to 
drive or otherwise influence park management decisions. Congress should 
be wary of ``incentivizing'' commercial filming fees for park managers 
to the degree that the attraction of the additional revenues colors 
decision making.

NPCA's Recommendation

    The points of agreement reached during NPCA's workshop with the 
land managers, industry representatives and congressional staff 
represent a significant portion of our general recommendation for 
legislation as it continues to evolve. The need for certainty in 
building a schedule approach is compelling. We would recommend 
therefore that a base schedule be developed for assessing fees on an 
individual park basis that includes the following considerations: (1) 
physical footprint of the proposed filming event; (2) size of the crew 
required for the filming; (3) length of use of the park; and (4) the 
level of disturbance, both in terms of inconvenience to the visitor and 
intrusiveness of the use. All of these factors can be arranged in a 
schedule that would allow the industry certainty in the cost, and would 
allow the Park Service to streamline the process for consideration. In 
addition, all such fees should be assessed as supplementary to the 
direct and indirect cost of managing the use of the parks by the 
commercial filming industry, and separate from any bonding or insurance 
requirements.
    Thank you again for the opportunity to present NPCA's views on 
commercial filming in the national parks.
                                ------                                


  Statement of Clarence A. Bigelow, Manager-Clerk, St. Johns. Arizona

    Chairman Hansen & Members of the Committee:
    Thank you for this opportunity to testify. For the record, 
my nane is Clarence Bigelow. I currently serve as the County 
Manager for Apache County, Arizona.
    On behalf of our children, our parents and our schools, I 
offer the following in support of House Resolution 150.
        <bullet> The government and schools of Apache County, as well 
        as other Eastern Arizona Counties, face increasing economic and 
        fiscal hardship at a time of increased service demands. Small 
        schools in our County are especially hard hit by dropping 
        enrollments, which result in lower student revenues from the 
        state at a time of high per student costs and increasing 
        regulatory mandates.\1\ Drops in student enrollment can be 
        attributed in large part to the 1990-1998 reduction in 
        workforce, and January, 1999 closure of the Eagar, Arizona 
        sawmill, as well as the decimation of the ranching industry. 
        The timber and ranching industries are the traditional economic 
        base of Apache County.
---------------------------------------------------------------------------
    \1\ Mandates come from several areas, including evolving health and 
safety rules, facilities standards, nutritional requirements, and 
student performance criteria
---------------------------------------------------------------------------
        <bullet> Smaller schools in Eastern Arizona Counties are 
        located in communities surrounded by public lands, making it 
        too expensive for these schools to acquire needed land in areas 
        of limited tax base. For instance, the Alpine school in Apache 
        County is surrounded by forest lands, which drives the full 
        cash value of the limited private lands in its school districts 
        to an average of $24,000 dollars per acre. Assuming that a 
        minunum of ten acres is needed for buildings, expansion, 
        parking, and playground facilities, it could cost Alpine 
        $240,000 just for needed land. In comparison, the entire 1998/
        99 maintenance, operations, and capital tax levy for Alpine is 
        $324,000.
          Fortunately, thanks to the diligent efforts of Congressman 
        J.D. Hayworth, Alpine recently received a land conveyance to 
        assist its efforts to upgrade. Unfortunately, other schools 
        such as Vernon in Apache County continue to face high annual 
        student costs, unsatisfactory land space, and unsafe conditions 
        for students.\2\ This legislation would help schools such as 
        Vernon to relocate away from high traffic areas, develop safe 
        and adequate facilities, and ensure the school's future; it 
        will also be very beneficial to the Round Valley School 
        District in Apache County, which is bordered by the U.S. 
        Forest.
---------------------------------------------------------------------------
    \2\ Annual student costs in Vernon are approximately $894,000 
dollars for 77 students.
---------------------------------------------------------------------------
          Schools and other local government facilities located on 
        leased public lands are also a serious concern for Eastern 
        Arizona Counties. Navajo County, Arizona, for example, is faced 
        with the possible expensive purchase of 640 acres of public 
        lands that schools are located on. Greenlee County, Arizona has 
        at least two schools (Blue and Eagle Creek) located on leased 
        forest lands, with only 160 private parcels in their collective 
        tax base.\3\ One of Gila County, Arizona's major schools is 
        located in a County Supervisor's district that has less than 1 
        percent of private property within the Supervisor's district, 
        with the rest being untaxable public lands.
---------------------------------------------------------------------------
    \3\ 72 private parcels for Blue and 94 for Eagle Creek
---------------------------------------------------------------------------
          Faced with these challenges, it is clear that passage of this 
        legislation would help these Counties immensely in their 
        efforts to ensure the stability of their schools, and create 
        the ability for poor school districts to generate needed 
        revenues from school owned lands.
          Apache County has obligations to maintain over 930 miles of 
        roads on our public lands and over 900 miles of roads on the 
        Navajo Nation for school bus routes and emergency vehicle 
        access. Hopefully, passage of this legislation may make it 
        possible for local governments to receive assistance to 
        maintain these roads.
    In conclusion, as you deliberate on the passage of House Resolution 
150, please keep in mind the economic and fiscal devastation facing 
rural Counties as a result of too many regulations, and an overwhelming 
volume of lawsuits related to the environment and endangered species. 
While we feel that this bill is critical for schools and local 
governments, it is our hope that you will also address in separate 
actions the more serious issues of regulation, litigation, and 
Endangered Species reform.
    Thank you.
                                 ______
                                 
 Statement of Arthur N. Lee, County Supervisor, Apache County, Arizona
    Thank you for this opportunity to testify. For the record, my name 
is Arthur N. Lee, County Supervisor from Apache County, Arizona.
    On behalf of Apache County and the Coalition of Arizona/New Mexico 
Counties for Stable Economic Growth, I come before you today in support 
of House Resolution 150. For several years now, our Counties' mountain 
community schools have suffered economic hardship. Dropping enrollments 
are common, as logging, ranching, and mining families are forced by 
regulations and court decisions to move out of the towns they grew up 
in. In Apache and Greenlee County alone, at least five school districts 
(Alpine, Blue, Eagle Creek, Vernon, and Round Valley) face this 
problem.
    The result of losing these families is a drop in bonding capacity, 
school property tax revenues, and in-school student revenues. With this 
loss of funds and bonding ability, our mountain schools are in many 
cases unable to acquire property critical to the service of their 
students. This happened to the Alpine school, which is in my County 
Supervisors District. Fortunately, with the assistance of Congressman 
J. D. Hayworth, we were able to get a grant of land for them.
    In the Round Valley area, we just lost the Eagar sawmill, the 
largest remaining sawmill in the Southwest. Due to the forced 
elimination of timber harvesting, they were forced to permanently close 
the mill and lay off the 70 remaining workers. When the mill ran at 
full capacity in 1989, it directly and indirectly employed almost 700 
people, including mill workers, loggers, timber haulers, etc. While 
hope remains that good sense will return the harvesting of timber in 
time to save our forests from catastrophic fire and save our mill, it 
is equally important to save our cattle industry.
    As a result of the loss of the timber and cattle industries, more 
families will move out of our school districts, which will force the 
schools to lay off teachers, cut critical programs, and cripple the 
quality of our children's education.
    Mr. Chairman, the problems I have described to you are happening to 
schools in many rural Arizona and New Mexico Counties, as a result of 
lawsuits and environmental regulations that continue to shut down our 
economic base industries, destroy our way of life, and ruin the 
education of our children. For example, the Blue and Eagle Creek 
schools in Greenlee County, Arizona are located on public forest lands. 
The loss of ranching and timber families has forced these schools to 
periodically close, and they live in constant fear that their schools' 
land leases will not be renewed. In Navajo County, Arizona, costs of 
regulations for schools on public lands drive the costs of education up 
at a time of increasing uncertainty. In Gila County, Arizona, only 3.8 
percent of their total land base is private property, with some school 
districts located in areas with less than 1 percent private property. 
The ability of these schools to receive a grant of land would give them 
more security, and improve their financial situation.
    The passage of this bill should also help many school districts 
lower their expenses by eliminating those schools' need to lease 
property, lower the cost of building expansion, and provide quality 
outdoor educational opportunities for our children. In addition, local 
governments can benefit from greater social stability, and expansion of 
essential community services.
    Mr. Chairman, for the sake of our children, our families, and our 
schools, we urge that you pass House Resolution 150.
    Thank you for your time.
    [GRAPHIC] [TIFF OMITTED] T4691.001
    
    [GRAPHIC] [TIFF OMITTED] T4691.002
    
    [GRAPHIC] [TIFF OMITTED] T4691.003
    
    [GRAPHIC] [TIFF OMITTED] T4691.004
    
    [GRAPHIC] [TIFF OMITTED] T4691.005
    
    [GRAPHIC] [TIFF OMITTED] T4691.006
    
    [GRAPHIC] [TIFF OMITTED] T4691.007
    
    [GRAPHIC] [TIFF OMITTED] T4691.008
    
    [GRAPHIC] [TIFF OMITTED] T4691.009
    
    [GRAPHIC] [TIFF OMITTED] T4691.010
    
    [GRAPHIC] [TIFF OMITTED] T4691.011
    
    [GRAPHIC] [TIFF OMITTED] T4691.012
    
    [GRAPHIC] [TIFF OMITTED] T4691.013
    
    [GRAPHIC] [TIFF OMITTED] T4691.014
    
    [GRAPHIC] [TIFF OMITTED] T4691.015
    
    [GRAPHIC] [TIFF OMITTED] T4691.016
    
    [GRAPHIC] [TIFF OMITTED] T4691.017
    
    [GRAPHIC] [TIFF OMITTED] T4691.018
    
    [GRAPHIC] [TIFF OMITTED] T4691.019
    
    [GRAPHIC] [TIFF OMITTED] T4691.020
    
    [GRAPHIC] [TIFF OMITTED] T4691.021
    
    [GRAPHIC] [TIFF OMITTED] T4691.022
    
    [GRAPHIC] [TIFF OMITTED] T4691.023
    
    [GRAPHIC] [TIFF OMITTED] T4691.024
    
    [GRAPHIC] [TIFF OMITTED] T4691.025
    
    [GRAPHIC] [TIFF OMITTED] T4691.026
    
    [GRAPHIC] [TIFF OMITTED] T4691.027
    
    [GRAPHIC] [TIFF OMITTED] T4691.028
    
    [GRAPHIC] [TIFF OMITTED] T4691.029
    
    [GRAPHIC] [TIFF OMITTED] T4691.030
    
    [GRAPHIC] [TIFF OMITTED] T4691.031
    
    [GRAPHIC] [TIFF OMITTED] T4691.032
    
    [GRAPHIC] [TIFF OMITTED] T4691.033
    
    [GRAPHIC] [TIFF OMITTED] T4691.034
    
    [GRAPHIC] [TIFF OMITTED] T4691.035
    
    [GRAPHIC] [TIFF OMITTED] T4691.036
    
    [GRAPHIC] [TIFF OMITTED] T4691.037
    
    [GRAPHIC] [TIFF OMITTED] T4691.038
    
    [GRAPHIC] [TIFF OMITTED] T4691.039
    
    [GRAPHIC] [TIFF OMITTED] T4691.040
    
    [GRAPHIC] [TIFF OMITTED] T4691.041
    
    [GRAPHIC] [TIFF OMITTED] T4691.042
    
    [GRAPHIC] [TIFF OMITTED] T4691.043
    
    [GRAPHIC] [TIFF OMITTED] T4691.044
    
    [GRAPHIC] [TIFF OMITTED] T4691.045
    
    [GRAPHIC] [TIFF OMITTED] T4691.046
    
    [GRAPHIC] [TIFF OMITTED] T4691.047
    
    [GRAPHIC] [TIFF OMITTED] T4691.048
    
    [GRAPHIC] [TIFF OMITTED] T4691.049
    
    [GRAPHIC] [TIFF OMITTED] T4691.050
    
    [GRAPHIC] [TIFF OMITTED] T4691.051
    
    [GRAPHIC] [TIFF OMITTED] T4691.052
    
    [GRAPHIC] [TIFF OMITTED] T4691.053
    
    [GRAPHIC] [TIFF OMITTED] T4691.054
    
    [GRAPHIC] [TIFF OMITTED] T4691.055
    
    [GRAPHIC] [TIFF OMITTED] T4691.056
    
    [GRAPHIC] [TIFF OMITTED] T4691.057
    
    [GRAPHIC] [TIFF OMITTED] T4691.058
    
                                      <all>
</pre></body></html>
